<html>
<title> - NO CHILD LEFT BEHIND: IMPROVING ACADEMIC ACHIEVEMENT THROUGH FLEXIBILITY & ACCOUNTABILITY FOR SCHOOLS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




      NO CHILD LEFT BEHIND: IMPROVING ACADEMIC ACHIEVEMENT THROUGH 
               FLEXIBILITY & ACCOUNTABILITY FOR SCHOOLS

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                   April 15, 2004 in Augusta, Georgia

                               __________

                           Serial No. 108-50

                               __________

  Printed for the use of the Committee on Education and the Workforce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-140                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director

                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 15, 2004...................................     1

Statement of Members:
    Boehner, John A., Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Majette, Hon. Denise, a Representative in Congress from the 
      State of Georgia...........................................     4

Statement of Witnesses:
    Cox, Kathy, Superintendent of Schools, State of Georgia, 
      Atlanta, GA................................................    13
        Prepared statement of....................................    18
    Hickok, Dr. Gene, Acting Deputy Secretary of Education, U.S. 
      Department of Education, Washington, DC....................     8
        Prepared statement of....................................    10
    McDaniel, Dr. Jeff, Director of School Improvement & Federal 
      Programs, Floyd County Board of Education, Rome, GA........    20
        Prepared statement of....................................    24

 
     NO CHILD LEFT BEHIND: IMPROVING ACADEMIC ACHIEVEMENT THROUGH 
                FLEXIBILITY & ACCOUNTABILITY FOR SCHOOLS

                              ----------                              


                        Thursday, April 15, 2004

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to call, at 10:04 a.m., in the 
Augusta-Richmond County Public Library, 902 Greene Street, 
Augusta, Georgia, Hon. John A. Boehner (Chairman of the 
Committee) presiding.
    Present: Representatives Boehner, Burns and Majette.
    Chairman Boehner. A quorum being present, the Committee on 
Education and the Workforce will come to order. We are meeting 
today to hear testimony on No Child Left Behind: Improving 
Academic Achievement Through Flexibility and Accountability for 
Schools. I want to thank the Augusta-Richmond County Public 
Library for hosting this hearing today. I appreciate their 
hospitality and I am pleased to be here.
    By the way I am John Boehner. I am a Member from Ohio and 
Chairman of the Committee on Education and the Workforce. I am 
eager to hear from our witnesses, but before we begin I need to 
ask unanimous consent for the hearing record to remain open for 
14 days to allow member statements and other extraneous 
material referenced during today's hearing to be submitted for 
the official hearing record. Without objection, so ordered.

   STATEMENT OF HON. JOHN A. BOEHNER, CHAIRMAN, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Let me just thank all of you for being here this morning 
for this field hearing, and let me thank Congressman Max Burns 
for hosting us here this morning and inviting us here.
    We also want to thank Georgia Congresswomen Denise Majette 
for attending. Both Ms. Majette and Mr. Burns sit on our 
Committee, the Committee on Education and the Workforce, and 
have been very active--both have been very active dealing with 
the implementation of No Child Left Behind.
    I am afraid today's hearing will not be quite as exciting 
as the back nine at the Masters on Sunday, but I am sure we 
will learn an awful lot in this hearing today. We are all here 
today because we believe that every child in America deserves a 
quality education and we recognize improving our education 
system is essential, not only to our society but to our 
nation's economy and competitiveness as well. And if for no 
other reason, the fact that every child deserves a chance at 
the American dream and without a good education, their chance 
at the American dream is severely limited.
    Three years ago, President Bush brought the members of our 
Committee together to write No Child Left Behind. We produced a 
law that is uniquely bipartisan and we all agreed with the need 
to provide states and local school districts with the 
additional flexibility they need to improve academic 
achievement for all of their students. No Child Left Behind 
requires student test data to be broken down by group and 
reported to the public. Achievement gaps between disadvantaged 
students and their peers, once hidden from public view, are now 
public knowledge. The law is shining a brilliant spotlight on 
the most neglected corners of our public education system. And 
while we have not always liked what we found staring back at 
us, I think we are better off as a nation because we have 
admitted that it is there and now we can do something about it.
    No Child Left Behind was written to empower states and 
local districts with unprecedented levels of flexibility to 
make decisions at the state and local level to improve student 
academic achievement. All 50 states, Puerto Rico and the 
District of Columbia have designed accountability systems to 
guarantee state and local officials make the decisions to 
ensure that all students are learning. And it is important to 
note that the states, not the Federal Government, design and 
implement their own accountability systems. And these plans 
include state designed tests for reading and math, state 
academic standards, the starting point to measure progress, the 
amount of progress the student must make from year to year, and 
state plans for holding schools accountable for achieving those 
results.
    Also, states, not the Federal Government, decide what 
constitutes a highly qualified current teacher. States design 
their own plans for ensuring that every classroom is taught by 
a highly qualified teacher. And under the law, every local 
district in America can now make spending decisions, up to 50 
percent of its non-Title I Federal funding, without having to 
receive permission from the state or Federal officials. For 
example, Richmond County Schools could use up to 50 percent of 
its Federal school technology funds for improving teacher 
quality. And if local school officials believe this move will 
help them improve student achievement, they can move funds from 
one Federal pot to another.
    In addition to this new flexibility, a set number of states 
and school districts can apply for additional flexibility under 
a new demonstration project created in No Child Left Behind. 
For states and local districts seeking the maximum level of 
flexibility for how they spend Federal dollars, I have 
encouraged them to explore these demonstration projects. Local 
education agencies participating in local flex can make local 
spending decisions with up to 100 percent of their non-Title I 
Federal funding, and there is still room for 79 local districts 
to participate in the local flex project.
    States participating in the state flex program can 
consolidate state level funding for virtually all Federal 
programs including Title I-A to meet state and local 
priorities. For example Florida, the only state currently 
participating in the program, can use its state level Federal 
Reading First funding to purchase new computers. Six more 
states can participate in this pilot project and we would 
encourage states to take a look at it.
    No Child Left Behind also acknowledges that rural school 
districts face their own unique challenges for improving 
student achievement. Often rural districts and schools do not 
receive significant levels of Federal funding under certain 
programs to meet the needs of the program's intent-- we allow 
them to take many, or almost all of their Federal funds and 
roll them into a very flexible package.
    Finally, No Child Left Behind was designed to allow common 
sense regulatory adjustments during the implementation process. 
This has allowed the U.S. Department of Education to listen to 
state and local concerns and fine tune the implementation of No 
Child Left Behind without amending the law or issuing waivers 
to states that might undermine the law's lofty goals. And I 
want to commend the Secretary of Education Rod Paige and the U. 
S. Department of Education for diligently working with state 
and local education officials to offer additional flexibility 
for the assessment of students with disabilities, for students 
with limited English, and highly qualified teachers in the 95 
percent participation rate.
    I want to commend all of you again for attending today. I 
really want to thank our distinguished panel of witnesses for 
their participation and I look forward to your testimony.
    At this time I would like to turn now and yield to the 
gentle lady from Georgia, Ms. Majette.
    [The prepared statement of Chairman Boehner follows:]

Statement of Hon. John A. Boehner, Chairman, Committee on Education and 
                             the Workforce

    Thank you all for being here this morning for this field hearing of 
the House Committee on Education & the Workforce. First, let me thank 
Congressman Max Burns for hosting us today. I'd also like to thank 
Congresswoman Denise Majette for attending. I'm afraid today's hearing 
might not be as exciting as the back nine of the Masters last Sunday, 
but we will try.
    We're here today because we all believe every child in America 
deserves a quality education. We recognize improving our education 
system is essential not only to our society, but to our nation's 
economy and competitiveness as well.
    Three years ago, President Bush brought the members of our 
committee together to write the No Child Left Behind Act. We produced a 
law that was uniquely bipartisan. We all agreed with the need to 
provide states and local school districts with the additional 
flexibility they need to improve academic achievement for all of their 
students.
    For years, states and school districts--pointing to rising overall 
student test scores--had accepted an ever-increasing amount of federal 
funding even as they hid the fact that certain groups of children were 
falling behind. States and schools were able to highlight ``aggregate'' 
data showing most students were making progress. But because they were 
required only to report this data in the aggregate, parents and 
taxpayers could be kept in the dark when some children were actually 
losing ground.
    No Child Left Behind requires student test data to be broken down 
by group and reported to the public. Achievement gaps between 
disadvantaged students and their peers, once hidden from public view, 
are now public knowledge. The law is shining a brilliant spotlight on 
the most neglected corners of our public education system--and while we 
haven't always liked what we've found staring back at us, we're better 
off as a nation because we've admitted it's there and can now do 
something about it.
    No Child Left Behind was written to empower states and local school 
districts with an unprecedented level of flexibility to make decisions 
at the state and local level to improve student academic achievement.
    In exchange for billions of dollars of federal education aid, all 
50 states, Puerto Rico, and the District of Columbia have designed 
accountability systems to guarantee state and local officials make the 
decisions to ensure all students are learning. It's important to note 
that states--not the federal government--design and implement their own 
accountability systems. These plans include state-designed tests for 
reading and math, state-set academic standards, the starting point to 
measure progress, the amount of progress students must make from year 
to year, and state plans for holding schools accountable for achieving 
these goals.
    Also, states--not the federal government--decide what constitutes a 
highly-qualified current teacher. States design their own plans for 
ensuring every classroom is taught by a highly qualified teacher.
    Under the law, every local school district in America now can make 
spending decisions with up to fifty percent of its non-Title I federal 
funding--without having to receive permission first from state or 
federal officials. For example, Richmond County schools can use up to 
fifty percent of its federal school technology funds for improving 
teacher quality, if local school officials believe this move will help 
improve student achievement.
    In addition to this new flexibility, a set number of states and 
school districts can apply for additional flexibility under new 
demonstration projects created in No Child Left Behind. For states and 
local school districts seeking the maximum level of flexibility for how 
they spend federal education dollars, I'd encourage them to explore 
these demonstration projects.
    Local educational agencies participating in ``Local-Flex'' can make 
local spending decisions with up to one hundred percent of their non-
Title I federal funding. There is still room for seventy-nine local 
school districts to participate in the ``Local-Flex'' program.
    States participating in the ``State-Flex'' program can consolidate 
state-level funding for virtually all federal programs, including Title 
I aid, to meet state and local priorities. For example, Florida--the 
only state currently participating in the program--can use its state-
level federal Reading First funding to purchase new computers. Six more 
states can participate in the program.
    No Child Left Behind also acknowledges rural school districts face 
their own unique challenges for improving student achievement. Often, 
rural districts and schools do not receive significant levels of 
federal funding under certain programs to meet their needs or the 
programs' intent. Under the popular Rural Educational Achievement 
Program (REAP), participating rural school districts receive additional 
resources and are allowed to make local spending decisions with up to 
one hundred percent of their non-Title I federal funding.
    Finally, No Child Left Behind was designed to allow common sense 
regulatory adjustments during the implementation process. This has 
allowed the U.S. Department of Education to listen to state and local 
concerns and fine tune the implementation of No Child Left Behind--
without amending the law or issuing waivers to states that might 
undermine the law's lofty goals.
    I commend Secretary Rod Paige and the U.S. Department of Education 
for diligently working with state and local education officials to 
offer additional flexibility for the assessment of students with 
disabilities and students learning English; highly-qualified teachers; 
and the ninety-five percent participation rate.
    I would like to thank everyone for attending today. I'd especially 
like to thank our distinguished witnesses for their participation. I 
look forward to your testimony.
                                 ______
                                 

STATEMENT OF HON. DENISE MAJETTE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Ms. Majette. Thank you, Mr. Chairman, and thank you for 
bringing this discussion on this very important issue to my 
home state of Georgia today. And I really am pleased to join 
with you and my colleagues and Representative Burns to talk 
about the most important Federal effort in education that we 
have seen in many decades, the No Child Left Behind Act. This 
Act has generated much controversy here in Georgia as well as 
around the nation. The goals of the Act are sound. We must 
close the achievement gap and ensure that each and every one of 
our children is able to learn. Education is the key to a better 
life. We do not want to deny any of our children the 
opportunity to learn and to better themselves and better our 
communities.
    I was not in Congress when the No Child Left Behind Act was 
passed; however, I have been here for much of the progress on 
its implementation. I frankly have been extremely disappointed 
with the Bush administration's failure to fund this Act at the 
levels authorized by Congress. Without proper Federal funding, 
our school systems, our teachers, our principals, and 
administrators will not have sufficient resources to implement 
the Act.
    Taking into account the President's 2005 budget, Congress 
and the Bush administration have short-changed No Child Left 
Behind by nearly $27 billion. The latest Bush budget leaves No 
Child Left Behind short by $9.4 billion alone. And I hope that 
we will hear testimony this morning regarding the impact, the 
direct impact, on that reduced funding that will be felt by the 
people here in Georgia.
    I believe that a promise made should be a promise kept. The 
broken promise of not fully funding the program at the 
authorized levels affects the education of our children. And by 
doing so, it undermines the ability of our community and our 
nation to grow and prosper. I know that my colleagues here will 
undoubtedly have a different view of the resources available 
and how we need to fund our school systems. But in my district 
and as I talk to educators throughout the state of Georgia they 
agree that additional Federal funding is needed. Now I realize 
that in some cases there are funding sources that are available 
and that some of that funding is not directed to the places 
where it can be most effectively used. That is an issue that we 
will have to address.
    But we do need more resources in order to be in compliance 
with the mandatory additional testing and the mandatory teacher 
quality enhancement and the requirements of the No Child Left 
Behind Act. Now these are important improvements to our 
education system, but making these improvements work will take 
resources, resources that the Federal Government acting in 
concert with the state and local government need to supply.
    It is unreasonable and unfair to impose another financial 
burden on state and local governments, forcing them to raise 
taxes to comply with these Federal mandates while the Bush 
administration boasts of tax cuts--tax cuts that keep all of 
our children from being properly educated.
    I do, however, think that we can agree that our schools, 
our teachers and principals do need additional information and 
technical assistance on how to implement the requirements of No 
Child Left Behind. And this is one area in which I believe the 
Bush administration could have done a better job. However, 
adjustments are being made and I hope that we will also hear 
testimony about the continuing analysis of how some of these 
adjustments can be made for the betterment of the 
implementation of the program.
    The administration has only recently begun to issue new 
regulations and guidance that put in place the common sense 
flexibility that is required for the implementation of No Child 
Left Behind. But one of the problems that our schools are 
facing is that it has been too little too late.
    To address that problem, 30 of my Democratic colleagues and 
I have asked the Secretary of Education to apply these new 
flexibilities retroactively, apply them to last year's test 
results. Many schools would not have been identified as non-
performing schools had these regulations been in place last 
year.
    Secretary Paige thus far has refused this request. I am 
hoping that Dr. Hickok can expand on the Secretary's thinking 
today, and indicate whether there might be a new opinion as to 
how the Department should proceed on this matter.
    In closing, Mr. Chairman, again I want to thank you for 
conducting this very important hearing and being able to have 
the people of Georgia have the interaction that we have so 
often in Washington. Thank you.
    Chairman Boehner. It is now my pleasure to introduce our 
host, the Congressman from Augusta and the surrounding areas, 
Congressman Max Burns.
    Mr. Burns. Thank you, Mr. Chairman. I welcome the Chairman 
and Congresswoman Majette to the 12th district. I appreciate 
the field hearing being placed here in Augusta. I appreciate 
the Committee's support for gaining input from Georgians and 
from those who have certainly a very keen and important 
interest in this issue here.
    I want to thank the Chairman for coming and certainly Ms. 
Majette for taking time to attend and certainly the witnesses 
who are going to provide us with the input this morning. All of 
us know that No Child Left Behind was a critical piece of 
education legislation that is helping us close the achievement 
gap that exists between America and the rest of the world, and 
between disadvantaged students and their more affluent peers. 
Through the hard work of our states and local educational 
leaders, we will ensure that every child, regardless of race, 
economic background, disability, or geography, has access to a 
first class education.
    Perhaps no other district in the Nation better exemplifies 
the diversity between school systems across America than the 
12th District of Georgia. Georgia's 12th District includes 
affluent rapidly growing suburbs, low income urban areas, small 
towns, and rural school systems. I believe that No Child Left 
Behind is working in the 12th and I believe that it can succeed 
throughout our nation. No Child Left Behind reflects the four 
pillars of President Bush's education reform agenda that was 
implemented in the 107th Congress.
    And like Congresswoman Majette, I was not a part of the 
legislation development, but I have been a part of its 
implementation. And the education reform had four pillars-- 
accountability in testing, flexibility and local control, 
funding for what works, and then, expanded parental options. No 
Child Left Behind also requires testing, annual testings in 
both reading and math for grades three through eight; that 
parents receive report cards on the achievement goals of 
schools; that our teacher quality be improved and that we 
ensure that all students are taught by highly qualified 
teachers; that students and their parents can have choice in 
the public school system and receive supplemental services when 
they are in under-achieving environments.
    I think it is important to point out that No Child Left 
Behind is not a one size fits all mandate. It allows states a 
tremendous amount of flexibility. Individual states are given 
the flexibility to determine a variety of factors including 
what factors make a student proficient, the starting point for 
measuring the progress of schools and students, and the amount 
of progress that must be made year to year. They also have the 
flexibility to develop their own tests to determine if existing 
teachers should be deemed highly qualified.
    I am also particularly pleased that No Child Left Behind 
allows states and local districts the flexibility to shift the 
Federal dollars that had been earmarked for one specific 
purpose to use in more effective areas and effectively across 
state and local needs and priorities.
    Unlike our previous law, states and districts can now take 
advantage of the flexibility without prior approval from the 
U.S. Department of Education. States have taken advantage of 
this flexibility with varying degrees of success. I am pleased 
to report that the State of Georgia is on the cutting edge when 
it comes to utilizing the flexibility of No Child Left Behind. 
This is one of the reasons why I am particularly pleased to 
welcome Georgia's State Superintendent Ms. Kathy Cox here 
today, and I am looking forward to her testimony as well as 
that from Dr. Gene Hickok at the U.S. Department of Education, 
and Dr. McDaniel from Floyd County.
    Mr. Chairman, I thank you for bringing the Committee 
hearing to Augusta today, and I look forward to the testimony 
of our witnesses.
    Chairman Boehner. Before I begin to introduce our 
witnesses, let me just say that when we designed No Child Left 
Behind and put it in place, we worked with state school chiefs 
all across the country. No one ever thought this was going to 
be easy, but I would suggest to all of you that the goals of No 
Child Left Behind are widely embraced--that every child 
deserves a chance and how we work our way through this goal 
will be the real challenge that all of us face.
    Our witnesses today include Dr. Gene Hickok. Dr. Hickok is 
the Under Secretary of Education and the Acting Deputy 
Secretary at the U.S. Department of Education. Prior to his 
appointment, Dr. Hickok was Pennsylvania's Secretary of 
Education.
    Secondly, we have the State Superintendent of Education 
here in the State of Georgia, Ms. Kathy Cox. She's the Chief 
Executive Officer of the Georgia Board of Education. Prior to 
being elected Superintendent, she was a representative in the 
Georgia State Legislature and worked as a social studies 
teacher for 15 years with the Fayette County Board of 
Education. Thank you for coming.
    And then we have Dr. Jeffrey McDaniel. Dr McDaniel has a 
total of 17 years of teaching and educational leadership 
experience. He is currently the Director of School Improvement 
and Federal Programs for Floyd County Schools. Dr. McDaniel 
began his educational career in a K-12 school teaching 
elementary, middle, and high school math at Cedar Ridge Academy 
in Smyrna. He has also taught sixth grade at Oak Grove School 
in Cherokee County, Georgia.
    We would like to give each of you 5 minutes or so, we are 
not going to be too tight on the time. We have your written 
testimony so you can summarize it. And then, we will have one 
or more rounds of questions from the members; and with that Dr. 
Hickok, you can begin.

  STATEMENT OF DR. GENE HICKOK, UNDER SECRETARY OF EDUCATION, 
          U.S. DEPARTMENT OF EDUCATION, WASHINGTON DC

    Dr. Hickok. Thank you, Mr. Chairman. It is not only a 
pleasure to be in Georgia, but it is a pleasure to share the 
panel with the Secretary here from Georgia, Kathy Cox, who I 
have great admiration for. And for Dr. McDaniel. With your 
permission I will just submit my testimony for the record.
    I am lucky enough to have the job of overseeing the 
implementation of No Child Left Behind, and by saying I am 
lucky enough it is because I get a chance to travel across the 
country. Last night I came in from Minnesota to be here, to 
Georgia to learn what is going on. Part of my job is to find 
out how the implementation of this law--which I think all of us 
agree has tremendous potential to transform American 
education--how the implementation is going and what lessons we 
can learn from it. And as all of you have stated in your 
opening statements, one of our goals is to make sure that where 
we have to we can find the flexibility to make sure the intent 
of the legislation is fulfilled.
    There are a lot of misperceptions out there, and I think 
many of them have been addressed by your opening statements, 
but I want to go over some of them again because I think it is 
terribly important, especially if we have an audience that is 
concerned about teaching and learning--teachers, principals, 
superintendents--because they deserve the right information. 
Because they are doing this important work, what I call the 
essential work of a democracy, educating the next generation of 
America.
    Flexibility is not just the second principle of No Child 
Left Behind, in many ways it is the architectural heart of No 
Child Left Behind. The fact is that for the first time in the 
history of this country with regard to Federal education 
policy, every state has an accountability plan designed by that 
state to deal with how that state wants to pull together 
accountability that suits the needs of the teachers, the 
students, and the citizens of that state, and Georgia, as you 
have stated, is among the leaders in doing that.
    These accountability plans reflect, in this case, Georgia's 
sense of what academic standards should look like and how a 
state should measure those standards. These are state 
decisions. It is the states that decide what proficiency means, 
it is the states that decide how to identify schools with 
regard to making or not making adequately yearly progress. It 
is the states that decide what to do with schools that 
continually fail to make adequately yearly progress with regard 
to turning those schools around. It is the states that decide 
almost every aspect of the essential accountability provisions 
of No Child Left Behind.
    That is important. I have heard in my travels people talk 
about a Federal list of failing schools and I should point out 
immediately that there is no such term in the law as ``failing 
schools.'' Federal takeover of schools that are failing, 
obviously that is not the case. I have even heard it argued 
that once a school has been subject to years of not making 
adequate yearly progress they lose Federal dollars, and that is 
not the case. So one of my hopes is in our conversation today 
that we spend time trying to dispel some of these myths. 
Because I think the men and women who really spend their days 
trying to educate America's kids deserve the facts as much as 
possible. Because I think the facts are on their side.
    With regard to flexibility, the fact is that we have made 
some changes in the way we recommend implementation of this law 
to reflect the real world challenges that implementation 
confronts. With special education, we have recognized that some 
of our most challenged students probably need to be made 
available to take alternative assessments, and that those 
assessments be part of the way you count kids for proficiency. 
We want to balance that with a disturbing trend in many places 
of not counting special education kids, because of the concern 
that they might bring down the average of the school.
    We have looked at the challenge of students with limited 
proficiency and we have made some recommendations regarding 
accountability there to make sure that, one, the law is common 
sense oriented. But that those students are still part of an 
accountability system and every effort is made to get them 
proficient in English as soon as possible. With the highly 
qualified teacher provisions, we recognize that in many places 
where teachers teach a variety of different subjects because of 
where they are, middle school, or their location in a rural 
area, they need additional time working with the state to get 
highly qualified in the content area they are teaching.
    And we recognize that in some areas the participation rate, 
which the statute sets at 95 percent, may be relatively 
unrealistic--certainly as states that have not been 
experiencing higher participation rates, for whatever reason, 
now have to get that participation rate up. And we put together 
recommendations and initiatives that deal with average 
participation rates over time to help.
    To those who would argue, and we have seen this argument, 
that these policies reflect a watering down or back-tracking on 
No Child Left Behind, we would argue the exact opposite. They 
represent common sense attempts to help this law become a 
reality where the challenges are most severe.
    We will continue to do that, but my real message today 
frankly is that it is taking place, it is happening. Now when 
the President came to office in 2001, only 11 states were 
compliant with the law that had been written in 1994. A little 
over a year ago all the states were compliant. And right now, 
every state, some with more progress than others, some with 
more enthusiasm than others, but every state is busy trying to 
make No Child Left Behind a reality in that state. And I think 
that speaks volumes about the dedication of people like Kathy 
Cox and her colleagues, more importantly about the men and 
women who teach in our schools, because I think they are taking 
seriously the challenge and the opportunity this law presents.
    I look forward to our conversation. Thank you, Mr. 
Chairman.
    Chairman Boehner. Ms. Cox.
    [The prepared statement of Dr. Hickok follows:]

Statement of Eugene Hickok, Acting Deputy Secretary of Education, U.S. 
                Department of Education, Washington, DC

    Mr. Chairman and Members of the Committee:
    Thank you for this opportunity to testify today on the flexibility 
provisions in No Child Left Behind. No Child Left Behind provides a 
wide range of opportunities for States and school districts to tailor 
Federal programs to meet their unique needs and priorities. 
Administrators and educators at the State and local level know what is 
most important here in Richmond County. So while the goals and 
priorities set in No Child Left Behind are of critical importance, it 
is you at the State and local level that make it effective for your 
students, so that they can meet high standards.
    This Administration, as reflected in No Child Left Behind, is 
committed to empowering States and districts as they set high standards 
of accountability for results, thus ensuring that along with increased 
accountability, there is increased flexibility. In addition, the 
President has empowered States and districts to hold children to high 
standards through significant increases in Federal resources. The 
president's budget proposes $57.3 billion in discretionary 
appropriations for the Department of Education in fiscal year 2005. 
This represents an increase of $1.7 billion, or 3 percent, over the 
2004 level, and an increase of $15.1 billion, or 36 percent, since 
President Bush took office in 2001.
    The flexibility in No Child Left Behind comes in a number of forms, 
but there are certain provisions that I would like to highlight in my 
testimony today. First, there is the flexibility we have recently 
provided to states in the implementation of No Child Left Behind to 
further expand on the freedom that States already have to develop their 
own State accountability systems based on State standards, and to deem 
teachers highly qualified based on State standards. Second, there are 
the groundbreaking new flexibility authorities in No Child Left Behind 
that give States and school districts unprecedented authority in 
deciding how they can use, transfer and consolidate Federal program 
dollars.
            NEW GUIDANCE AND FLEXIBILITY UNDER NCLB
    No Child Left Behind builds on earlier requirements in Federal law 
that required States to develop standards and assessments, and to hold 
schools accountable for making progress. In doing so, it also provides 
significant flexibility to States to develop a system that is truly 
based on their own priorities, as reflected in their State content 
standards. For example, No Child Left Behind asks States to set their 
annual goals. States determine what is ``proficient'' for their 
students. They can also use a host of statistical procedures to ensure 
that schools are appropriately identified as being in ``school 
improvement.''
    I would like to commend Georgia for its strong accountability plan, 
and for its past history of holding schools accountable for meeting 
State standards. In addition, your State thought ``outside of the box'' 
when designing your new accountability system. As you know, instead of 
choosing one additional indicator, this State allows its districts to 
select from a menu of additional indicators that are used in elementary 
and middle school AYP decisions over a three-year period of time. This 
menu includes retention rate; achievement in writing, science, and 
social studies; and increases in the percentage of students scoring at 
advanced levels. Districts in Georgia have flexibility to focus on 
different issues, depending on the unique needs of students in their 
schools.
    Since No Child Left Behind was signed into law, we have been 
working to provide the field with guidance and regulations as quickly 
as possible. We issued final Title I regulations in December 2002. More 
recently, in working with States implementing State accountability 
plans and visiting States to discuss teacher quality issues, we have 
learned about issues that confront State and local leaders; issues that 
we felt needed to be addressed.
Students with the Most Significant Cognitive Disabilities
    Since 1997, States have been required to include all students with 
disabilities in their assessment systems. No Child Left Behind builds 
on that requirement to ensure that all students are part of the state 
accountability system. However, we also recognize that for a very small 
number of students with the most significant cognitive disabilities, 
reaching grade level standards may not be possible, even with the best 
instruction. On December 9 of last year, we issued a regulation 
addressing the inclusion of students with the most significant 
cognitive disabilities in State accountability and assessment systems. 
Based on comments from the field on the proposed regulation, this rule 
clarifies that when measuring AYP, States, school districts, and 
schools may count the ``proficient'' scores of students with the most 
significant cognitive disabilities who take assessments based on 
alternate achievement standards.
    As many as 1 percent of all students in the grades tested (about 9 
percent of students with disabilities) may have their scores counted as 
``proficient'' based on alternate achievement standards. States and 
school districts may apply for a higher limit if they demonstrate that 
they have a larger population of students with significant cognitive 
disabilities.
    Without this flexibility, those students would have to be measured 
against grade-level standards and considered ``not proficient.'' This 
new provision protects students, parents and teachers while providing 
flexibility to States, districts and schools to receive credit for the 
progress these students have made.
Limited English Proficient Students
    Limited English proficient (LEP) students new to the United States 
often have a difficult time participating in state assessments due to 
language barriers or the lack of schooling prior to arriving in the 
United States from their native countries. Thus, it is often difficult 
to assess LEP students' content knowledge in reading and other language 
arts in their first year of enrollment in a U.S. public school. A 
number of states have students representing more than 100 languages, 
making it virtually impossible to provide native language assessments 
for all students.
    A second issue concerns the definition of the limited English 
proficient subgroup itself. The LEP subgroup's membership can change 
from year to year, as students who have acquired English language 
proficiency exit the subgroup and recently arrived students enter it. 
Since LEP students exit the subgroup once they attain English language 
proficiency, States may have difficulty demonstrating improvements on 
state assessments for this student subgroup.
    In order to address these issues, on February 20, the Secretary 
announced two areas in which States would have flexibility in the 
assessment of and accountability for LEP students:
    .  LEP students, during their first year of enrollment in U.S. 
schools, have the option of taking the reading/language arts content 
assessment in addition to taking the English language proficiency 
assessment. These students must also take the mathematics assessment, 
with accommodations as appropriate. States may, but will not be 
required to, include results from the mathematics and, if given, the 
reading/language arts content assessments in their AYP--calculations 
part of the accountability requirements under NCLB. Students will be 
counted as participants for AYP purposes for the 95 percent testing 
requirement, which ensures that all children count and receive the 
quality education they deserve.
    .  For AYP calculations, States may include in the LEP subgroup 
students who have attained English proficiency for up to two years. The 
concept of including students who have exited the LEP subgroup for up 
to two years is consistent with Title III of the law, which requires 
Title III-funded schools to include in their evaluations for two years 
academic achievement data of students who used to be in the LEP group 
but who no longer receive Title III services.
    This flexibility provides teachers and students more time for 
English language instruction and acquisition. It gives States the 
flexibility to ensure that AYP calculations credit schools and 
districts for improving English language proficiency from year to year. 
The option to consider students to be LEP for two years after they exit 
the category provides an incentive for states to help students attain 
full proficiency in both the English language and in the academic 
content areas of reading/language arts and mathematics. It also serves 
as a response to the complaint that schools do not receive credit for 
the good work they have done helping LEP students attain full 
proficiency.
    We are in the process of issuing a proposed regulation and will 
take comments on these policies and issue a final regulation later this 
year. However, this policy is in effect for the current school year.
Highly Qualified Teachers
    In order to help States and school districts meet these and other 
challenges in complying with the highly qualified teacher requirements 
of No Child Left Behind, on March 15, the Secretary issued new guidance 
that both clarified existing flexibility and provided additional 
flexibility to meet these requirements.
    One key change affects the nearly 5,000 districts that are defined 
as small and rural under Title VI of the Elementary and Secondary 
Education Act. Such districts are allowed to employ middle or secondary 
school teachers provisionally to teach multiple subjects even if they 
do not meet all the criteria for a highly qualified teacher in each of 
the subjects they teach. Districts are eligible for this flexibility so 
long as they are providing intensive supervision and professional 
development that will enable these teachers to become highly qualified 
in the additional subjects over a three-year period. Teachers must be 
highly qualified in at least one of the subjects that they teach in 
order to qualify for this additional time.
    The new guidance also changed current Department guidance regarding 
qualifications for science teachers. States now have the flexibility to 
require science teachers to demonstrate subject-matter competence 
either in specific scientific fields or in general science, depending 
on State certification or licensure requirements.
    The Department also clarified that since States have the authority 
to define grade spans, they may determine the highly qualified teacher 
requirements that teachers must meet at the elementary, middle, and 
high school levels. Other areas covered by the new guidance include the 
use of a High, Objective, Uniform State Standard of Evaluation (HOUSSE) 
for veteran teachers, requirements for special education teachers, and 
improved data collection and monitoring procedures.
Participation Rates
    Another area of flexibility I would like to address today concerns 
the calculation of participation rates. Requiring participation in 
assessments makes our schools more inclusive, responsive, and fair in 
meeting the needs of struggling students. In order for no child to be 
left behind, all students need to be included in the assessment. The 95 
percent participation rate was included in the law to ensure that all 
children are assessed and that students are not systematically 
excluded. However, we recognize that are circumstances when a few 
absent students could prevent an otherwise successful school from 
meeting the 95 percent participation rate requirement.
    States already have significant authority in calculating 
participation rates. They determine how large a subgroup must be in 
order to be considered separately for participation rate calculations. 
In addition, many States have testing ``windows,'' which include 
``make-up assessments'' for students who miss tests. These make-up 
tests can count toward the school's participation rate.
    Under the new guidance announced on March 29, a State may use data 
from the previous one or two years to average the participation rate 
data for a school and/or subgroup, as needed. If this two- or three-
year average meets or exceeds 95 percent, the school will still meet 
the AYP participation rate requirement. Thus, schools that are 
performing well in this category may not be identified as ``in need of 
improvement'' because of a one- or two-year dip in their participation 
rates. The new policy also makes allowances for those rare 
circumstances when a student cannot take the assessment during the 
entire testing window, including make-up dates, due to a significant 
medical emergency, such as a car accident. Although students remain 
enrolled in the school during this period, schools do not have to 
include these students when calculating their participation rates.
            NEW FLEXIBILITY AUTHORITIES IN NO CHILD LEFT BEHIND
Transferability
    The vast majority of Federal education dollars reach States and 
districts through funding formulas. Funds for teacher quality, 
technology, Safe and Drug Free Schools, and the Innovative Programs 
grant are all distributed in this manner. However, Federal formulas do 
not always allocate funds in a manner that reflects local needs. Some 
districts may have a greater need to focus on professional development; 
others may be focusing on improving the safety of their schools. No 
Child Left Behind offers a remedy for this through what is called 
``Transferability.'' Now, for the first time, school districts can 
shift funds from one of those programs to another, or into Title I.
    Up to 50 percent of non-Title I formula funds can be transferred to 
other formula programs, including Title I. A State may transfer up to 
50 percent of the non-administrative funds allotted to it to carry out 
State-level activities. Transferability applies to the following 
programs:
    <bullet>  Teacher Quality State Grants
    <bullet>  Education Technology State Grants
    <bullet>  Safe and Drug-Free Schools and Communities State Grants
    <bullet>  State Grants for Innovative Programs
    School districts do not need to apply for this flexibility--it is 
automatic. They only need to notify the State. However, since 
flexibility requires a higher level of accountability, a school 
district identified for school improvement may only transfer up to 30 
percent and must use those funds for school improvement purposes. 
Districts identified for corrective action are prohibited from 
transferring funds under the transferability authority.
State and Local Flexibility Demonstration Programs
    The Transferability provision I just described is designed to allow 
resources to be shifted across Federal programs, but it does not affect 
any of the requirements attached to those program dollars. No Child 
Left Behind also provides States and districts the opportunity to 
demonstrate a new kind of flexibility--one that permits them to enter 
into an agreement for significant flexibility in exchange for producing 
results--through its State and Local Flexibility Demonstration 
programs.
    The ``State-Flex'' program authorizes the Secretary to grant 
flexibility to up to seven States. With this flexibility, a State can 
harness the use of Federal dollars at the State level to meet important 
State priorities. It accomplishes this by permitting States to do the 
following:
    (1)  Consolidate and use certain Federal funds reserved for State 
administration activities for any educational purpose authorized under 
NCLB.
    (2)  Specify how school districts use funds they receive under the 
State Grants for Innovative Programs. For example, a State could use 
this authority to use those funds to launch a new statewide initiative, 
or focus on school districts in need of improvement.
    (3)  Enter into performance agreements with four to ten school 
districts in the State, permitting those school districts to 
consolidate certain Federal funds and to use those funds for any ESEA 
purpose.
    The ``Local-Flex'' program permits up to 80 school districts (in 
States that do not participate in State Flex) to take non-Title I 
formula funds and to, in effect, design their own program using Federal 
dollars. The individual program requirements and distinctions go away. 
Instead, school districts are permitted to use the funds for any 
purpose authorized by No Child Left Behind for a 5-year period. This 
same flexibility is also available to districts that enter into 
agreements with their State under a State-Flex agreement.
    Local-Flex offers districts a powerful tool to design new 
approaches to meet their unique needs and total flexibility in 
directing certain Federal funds to achieve key gains in student 
academic performance and to meet or exceed AYP.
    It is not too late to apply for this flexibility--we just announced 
a new competition, and applications will be reviewed on a rolling 
basis. There isn't a deadline. Thus far, Florida has been approved as a 
State-Flex State, and 8 of its districts have entered into Local-Flex 
agreements with the State. Seattle has been approved as a Local-Flex 
district.
            CONCLUSION
    In my testimony today, I have only provided you with a brief look 
at the flexibility available to States and districts in No Child Left 
Behind. We believe that flexibility is critical to the success of No 
Child Left Behind. As I stated at the beginning of my testimony, you 
all know more than the Federal government about what your needs and 
priorities are. I encourage you to take full advantage of the 
flexibility authorities in the law--Transferability, State or Local 
flex, for example. In addition, I would encourage you to see your 
State's assessment and accountability system as truly your own, built 
on Georgia standards and reflective of your State's priorities. Examine 
the guidance we've recently released to see how it could help Georgia. 
Contrary to those who say we are watering down the requirements of the 
law, we believe this new flexibility enhances, and does not in any way 
diminish, the central accountability requirements of No Child Left 
Behind. The flexibility we granted was based on what we believed to be 
consistent with the letter and spirit of the statute, and was informed 
by State experiences in implementing the law.
    Lastly, keep in mind that all this discussion of flexibility and 
strange sounding terms like ``transferability,'' and the technical 
nuances of detailed regulations, that this is all about children--and 
making the ``system'' work for what is best for them. Together, we can 
work as partners to ensure that they can succeed.
    Thank you very much. I would be happy to answer any questions that 
you may have.
                                 ______
                                 

STATEMENT OF MS. KATHY COX, SUPERINTENDENT OF SCHOOLS, STATE OF 
                   GEORGIA, ATLANTA, GEORGIA

    Ms. Cox. Thank you.
    Chairman Boehner. Welcome.
    Ms. Cox. Thank you and welcome to Georgia, and I want to 
thank the Committee and Congresswoman Majette and Congressman 
Burns for being here and hosting this. This is a great 
opportunity for us here in the State of Georgia to share our 
experience with our own Members of Congress, which I will be 
pleased to say that I have had several conversations over the 
course of the last 10 to 12 months with both of our 
Representatives, even more. As you well know, Mr. Chairman, 
Georgia is well represented on the Education Committee.
    Chairman Boehner. More so than any other state I might add.
    Ms. Cox. So that is why you are here and we appreciate it, 
and they have all been very diligent in touching base and 
seeing what they can do to help the State of Georgia as we 
embark on this very important law. And I also want to thank Dr. 
Hickok and Dr. McDaniel for their testimony and being here 
today, and on behalf--just so you get Georgia in perspective--
Georgia's 181 school districts, 80,000 teachers, and 1.4 
million students. I am here as the State Superintendent of 
Schools representing that.
    And like every other state in this nation we have begun a 
journey toward what you know is a very ambitious goal, a goal 
that no other nation on the face of the earth has ever 
attempted, and that is that we are going to provide a quality 
education for all of our children by an absolute date. And we 
have embraced this in the State of Georgia. Sometimes maybe a 
forced embrace, but we have embraced it nonetheless, in almost 
every corner of our state I will say, and I say that with 
pride. And I think that it is very appropriate that we are here 
in Richmond County, Georgia, Augusta, which has been working 
very hard for many years on improving student achievement and 
working on closing the achievement gap and I will tell you that 
work continues at a ferocious pace today, as they prepare for 
their students next week who will be embarking on our statewide 
testing cycle. I have been fortunate to have been in this 
school system, this particular school system several times 
since I took office. And I will tell you while the work of No 
Child Left Behind has been tough and that disaggregation of 
data was tough for all of us in our state, this is a system 
that has embraced again the challenge and the goal of No Child 
Left Behind.
    And I will also add they are embracing a little bit more 
money today than they did last week because we were able to 
award Richmond County Schools Reading First grants to 22 of 
their elementary schools at this last--on Tuesday's State Board 
of Education meeting. So, I know they are pleased because each 
of those schools generally are receiving over $300,000 each to 
provide training and teacher support in Reading First efforts. 
So, this school system definitely understands the charge of No 
Child Left Behind and is taking advantage of the many 
opportunities that the Federal Government is offering us.
    I do also want to talk about the flexibility that the 
Department has recently extended to states regarding the 
implementation. First of all, the fact that--the uniqueness of 
the plans and while many portions of state plans may look 
similar, Georgia does have some unique attributes that we were 
pleased that the Department was able to support. For instance, 
our definition of basic, proficient, and advanced, our minimum 
number for the sub-group accountability, the way we chose to 
define full academic year so that it made sense with the data 
we were already collecting from systems, our time line for 
reaching 100 percent proficiency as well was all up to the 
State of Georgia.
    But one area that is particularly unique is the flexibility 
that we were given with the choice of an additional academic 
indicator. Many states opted to leave attendance as the only 
option for elementary and middle schools, and Georgia put 
together a plan that would offer their elementary and middle 
schools a menu of options. So, depending upon the strengths of 
that particular school or system they were free to chose among 
many things. Attendance rates still could be chosen by that 
school but you could also look at the middle grades' writing 
assessment that our state gives. You could also use the scores 
on our state-mandated tests in the area of science or social 
studies as a second indicator.
    And I think most importantly, as Georgia seeks not just to 
make students proficient but to actually challenge our school 
systems to move students from proficiency to beyond proficiency 
and to an area of exceeding the standards, one of the most 
important options is that schools can choose as a second 
indicator the number of students that they have in the 
exceeding the standards on these various academic assessments.
    We also know that this law has extended to us flexibility 
with regard to where we were in the progress of our own state 
reforms. Georgia was in the midst of its own development of an 
accountability system, its own development of a grading system 
for schools, its own development of large scale testing. We 
actually are a state that really for two decades has been 
testing our students, but that rigor of that test and doing it 
grades one through eight as well as a high school graduation 
test had already begun, and so we were one of those states that 
are out there that was kind of in the midst of doing really the 
same things that this law is attempting to do.
    And so then the law comes in, so how do we work the No 
Child Left Behind requirements in with what was already going 
on in our state? So, luckily what we have had again is an awful 
lot of flexibility working with the U.S. Department on 
interpretation of the law and working this AYP determination 
into our own state plan for accountability. And I am pleased to 
announce that while our legislators will have to come back for 
a special session to deal with our state budget troubles, we 
were able in this past legislative session to get language in 
our own state laws that are going to move us toward a single 
statewide accountability system.
    We also--in terms of flexibility, an area that has not 
gotten a whole lot of discussion as of late--but we also were 
very pleased with the flexibility over the definition of 
persistently dangerous schools. We in Georgia are in full 
support of the principle that students who have been victims of 
a violent criminal offense or who attend a school that meets 
that definition should have the ability to transfer to a safer 
environment. And so our priorities when we had this great 
flexibility to come up with how the state would define 
persistently dangerous, we wanted to make sure it was balanced 
and equitable, neither too lenient or too harsh and that no 
school would necessarily be unfairly labeled.
    While you look at Georgia standards and it is clear that 
the commission of a violent criminal offense just one time at a 
school over a period of 3 years, one for each year, could 
render it labeled persistently dangerous. That is a tough 
standard, but we felt as a state in discussion with our 
education stakeholders and particularly parents, that that is 
the hard line we needed to draw in the State of Georgia. So, we 
feel particularly pleased with the flexibility to be able to 
write our own definition.
    The other area that has been very beneficial to our state 
is the flexibility in the law that gives our school systems the 
ability to use up to half of their non-Title I funds as they 
see fit, something that you mentioned earlier, that ability to 
transfer Federal dollars between programs. Particularly at this 
time of very, very, extreme limitations on state budget 
dollars, the flexibility that they have over Federal programs 
has just been tremendous and much to their advantage. We have 
school systems across our state who now understand the benefits 
of literacy coaches, and the ability to be able to use Federal 
money to provide literacy coaches whether they are in the 
particular Title I program or not, and the ability to move 
things around is going to be tremendously helpful as we seek 
grade level proficiency in reading.
    We also make use of the school wide program, that 
consolidation of Federal funds at the school level for Title I 
schools. And again we are not one of your state flex states but 
we have benefited just from the ability to use our consolidated 
admin funds across the programs. And we have not fully embarked 
on the whole transferability of that, but we understand what we 
now have the capacity to do, and are in a situation as we beef 
up our reform efforts particularly in the testing area, the 
benefit of the flexibility.
    So, we feel as a state that we are helping our systems. As 
Congressman Burns pointed out, just here in the 12th District I 
think we have--I agree with you we have a clear representation 
of what every school system across the Nation, whether it is 
rural, urban, suburban, or a new one I heard yesterday 
ruburban, our rural school systems that are finally finding 
themselves a little bit of suburbia. And so, we have that in 
the 12th District as well, so again we are pleased.
    Now I will also point out the other areas that Georgia in 
the first year of implementation and AYP determination, the 
three biggest areas that we found our school system and our 
state had trouble with. First was 95 percent participation, 
that hit Georgia like a ton of bricks. I think it is fair to 
say no one was prepared for that literally. There was some 
knowledge of what this requirement would be. But there had not 
been much communication. I came in office in January and had to 
quickly get up to speed on No Child Left Behind and get the 
state department working on trying to communicate to our 
districts. But through no fault of our districts, they were not 
fully aware of what this requirement was going to be and how it 
was going to fully affect them. And I think that is fair to 
say, it was really no fault of their own. But at any rate, it 
hit and it hit hard, and I will give you some statistics on 
that in a minute.
    The other area that was particularly difficult for Georgia 
was the use of the alternative achievement standards and the 
alternate assessments for our students with the most 
significant cognitive disabilities. We kind of found ourselves 
in a catch-22 between what we were doing on IEPs and us not 
giving students the required tests at grade level versus what 
we had been able to do previously with the alternative 
assessment or the decision just not to test at grade level. So 
that also hit and was quite difficult.
    And then also we, like many, many states and this is going 
to be an ongoing issue that I think we will all continue to 
work on particularly with the Department, but the calculation 
of AYP for our limited English proficient students.
    But I am pleased to say that as all of these issues came 
up, we have seen a great willingness on the part of the Federal 
department, Secretary Paige, Dr. Hickok, the new assistant 
secretary Ray Simon and all of the staff to work with our state 
as well as many others in trying to understand the problem and 
then figure out how the regulations and the guidance could help 
us address these, and we have had some great results.
    Let me just talk a little bit about the participation 
criteria. Of the 846 schools across Georgia that did not make 
AYP, 536 subgroups did not meet the 95 percent criterion within 
those schools. And of those 846, 187 schools did not make AYP 
solely due to the 95 percent criterion. So, I want to point out 
two things that have happened. No. 1, this state woke up about 
attendance, wouldn't you say, Dr. McDaniel? Woke up in a quick 
way like having a piece of plywood across your head. And we 
immediately began work on a statewide student attendance task 
force that we pulled together of juvenile court judges, 
district attorneys, social workers, school officials, parents, 
and school level administrators to work on the issue of how can 
we raise attendance and help our schools make sure kids are 
coming. Because as teachers have said for many years, we cannot 
teach them if they are not there.
    So, we have done that and we again were successful in this 
legislation. I am very pleased to announce that we will now be 
implementing a school attendance protocol committee, made up of 
representatives from all of those areas I just discussed where 
every school system will be sitting down as a community to talk 
about how to solve the issue of truancy, and we are very 
pleased with that.
    But we are also pleased, very pleased, with the new 
guidance from the Federal Department about being able to have a 
two to 3 year average on the 95 percent participation. Because 
even schools that had terrific general attendance rates found 
themselves many times missing in a subgroup by two or three 
students because of our minimum number of 40. So that was a 
real issue for us and I think it was an issue across the Nation 
and the Department responded very accordingly.
    The second area was the use of the alternate achievement 
standards and alternative assessments for students with 
significant cognitive disabilities, and of course Georgia is 
committed to including all of our students in our state 
assessment and accountability system. We believe that the 
recent flexibility addressing the 1 percent cap is going to 
help many of our school systems. Where Georgia finds itself 
with this whole issue of special education I think as with many 
states, where we may not find ourselves as a statewide 
exceeding the 1 percent for those kids with significant 
cognitive disabilities, we may have those exceptions at a 
district level based upon the population of the community. But 
we feel as a state and working with the Federal Government and 
I think you alluded to this as well, working with that 
population of students that does not necessarily meet the 
definition or fit the kind of student that needs to be taking 
the alternate assessment but the student who though is still 
not ready for grade level testing. And I think that we as a 
state have expressed that to the Department, and we will be 
working with them over the next several months and years to 
help resolve that issue and to get our testing and our 
assessments in line so that we can be servicing all kids and 
holding schools accountable for the learning of students, but 
also recognizing fairness both to the students and to the 
schools in what they are trying to accomplish, with many of our 
students with disabilities.
    The last thing is the AYP for limited English proficient 
students. This also came--the new guidance pleased Georgia very 
much because one of the things that had troubled us as a state 
as we experience a large growth in this population of students, 
and it is not just in our urban Atlanta area or urban Augusta 
area, it is really happening statewide. We were very concerned 
about testing students who have not even had a chance to learn 
English.
    So the fact now that we can for the first year that child 
is in an American school or Georgia school not count their 
scores to the determination of the AYP is going to be very 
helpful to those schools and those students. And I think it 
will help ease some of the stress our ESOL teachers have been 
feeling about this law and about this particular provision. I 
also think that, and Georgia had actually proposed this in its 
plan and I would like maybe to take credit for giving the 
Department an idea, I doubt we were the only ones. But we had 
initially suggested that for that limited English proficiency 
group that we be allowed to carry their scores over even after 
they had officially left the program to allow that subgroup not 
to be in constant flux.
    And so again that kind of flexibility that we are now going 
to be able to experience will help tremendously.
    So, in conclusion, I believe as the State Superintendent of 
Schools and having also been around and working with districts, 
that as a result of No Child Left Behind, we can truly say for 
the first time ever in the State of Georgia that we are truly 
focusing on the performance of every child, in every classroom, 
in every part of our state. And we are fully committed to the 
ambitious goal of this legislation and again we are grateful to 
the U.S. Department of Education for giving us flexibility in 
the spirit of the law, and to say to you that our vision for 
the State of Georgia as we embrace this law and our other state 
laws that we are using to reform that we believe that you are 
going to see Georgia over the next several years, that Georgia 
will lead the Nation in improving student achievement for all 
students. Thank you.
    Chairman Boehner. Thank you, Ms. Cox. Dr. McDaniel.
    [The prepared statement of Ms. Cox follows:]

   Statement of Kathy Cox, Georgia State Superintendent of Schools, 
                              Atlanta, GA

    Thank you. On behalf of Georgia's 181 school districts, 80 thousand 
teachers, and 1.4 million students, I want to thank the Committee for 
this opportunity to share with you some of the wonderful things going 
on in our schools as a result of the No Child Left Behind Act.
    Like every other state in the nation, Georgia has begun a journey 
towards an ambitious goal that no other nation on earth has ever 
attempted: a quality education for all of its children by an absolute 
date. Educators and administrators across our state remain committed to 
the goal of this legislation: that by the 2013-2014 school year, every 
child in our state--regardless of race, income, or disability--will 
achieve at grade level, with no child left behind. We have made it our 
goal that we will lead the nation in improving student achievement over 
the next several years, and the implementation of No Child Left Behind 
will play a significant role in these efforts.
    Given the great flexibility extended to states regarding the 
implementation of provisions in No Child Left Behind, all fifty states 
have unique plans--and Georgia is no exception. Like many other states, 
Georgia has taken advantage of statutory flexibility in areas such as 
the definition of Basic, Proficient, and Advanced students; the minimum 
number for subgroup accountability; the definition of Full Academic 
Year; and the timeline for reaching 100% proficiency.
    In these areas, our plans resemble those of a great number of 
states. Georgia is particularly unique, however, in our use of 
flexibility with the choice of an additional academic indicator. While 
many states opted to leave attendance as the only option for elementary 
and middle schools, Georgia offers a variety of choices to local 
education agencies to ensure that AYP determinations are as relevant 
and valuable as possible at the local level. Our menu of additional 
indicators includes attendance rate, retention rate, Middle Grades 
Writing Assessment, CRCT Science, CRCT Social Studies, and the percent 
exceeding standards on academic assessments.
    No Child Left Behind also extends flexibility in the integration of 
AYP with the previously existing state accountability system. Under 
House Bill 1187, passed in 2000, Georgia took a major step towards 
accountability, putting into place many of the provisions--such as 
rewards and consequences for schools and systems and a statewide 
assessment program--that would be called for just a year later with the 
signing of No Child Left Behind. In order to ensure that the A-F 
grading plan proposed by HB 1187 was consistent with that of the AYP 
system, we joined the Governor in proposing legislation that would 
delay its implementation for one year as we worked to bring the 
provisions of state legislation into alignment with the federal law. As 
a result of the 2004 Georgia Legislative Session, the letter grades 
have been replaced with numerical scores.
    Georgia has also taken full advantage of the flexibility extended 
to states to define persistently dangerous schools. We are in full 
support of the principle that students who have been victims of a 
violent criminal offense or who attend a school that meets the 
definition should have the ability to transfer to a safer school. Our 
priority was to ensure that Georgia's definition was balanced and 
equitable, neither too lenient nor too harsh--and that no school would 
be unfairly labeled as persistently dangerous because of the criteria. 
Under the USCO rule, just one violation of school rules related to a 
violent criminal offense for three consecutive years may be enough to 
define a school as persistently dangerous. There were some arguments 
that this standard was too harsh and would lead to a school being 
unfairly labeled by the actions of one student. Ultimately it was 
determined, however, that stringent standards must be maintained in 
order to ensure that our schools provide safe, nurturing environments 
where students can learn. Accordingly, a school where a violent offense 
has occurred for three consecutive years has established a pattern of 
serious, violent offenses, and must improve for student learning to 
thrive.
    The flexibility in the law also gives our school systems the 
ability to use up to half of their non-Title I funds as they see fit, 
enabling them to transfer federal dollars between programs in order to 
address the specific needs of their student populations. Additionally, 
we make use of the School Wide Program, a consolidation of federal 
funds at the school level for Title I schools. At the state level, we 
have benefited from the ability to use consolidated admin funds to run 
federal programs. We have requested transferability of funds, but have 
not initiated its use at this point.
    Clearly, as a result of the statutory flexibility in the law, 
Georgia has been able to meet the unique needs of our systems and 
schools while fully complying with the spirit and the provisions of the 
legislation. As with any undertaking this expansive in scope and 
vision, however, there were numerous challenges that emerged during the 
implementation process. In the spirit of continued partnership with the 
United States Department of Education (USED), we shared three obstacles 
that presented Georgia's schools and systems with the greatest 
difficulty: 95% participation, the use of alternate achievement 
standards and alternate assessments for students with significant 
cognitive disabilities, and the calculation of AYP for Limited English 
Proficient (LEP) students. Showing its willingness to work with states 
to enable them to fulfill the provisions of the law, the United States 
Department of Education has responded in each of these areas in recent 
months with new areas of flexibility.
1. 95% Participation Criterion
    Out of the 846 schools across Georgia that did not make AYP, 536 
subgroups did not meet the 95% criterion. 187 schools did not make AYP 
solely due to the 95% criterion. We are working on a variety of 
measures to improve these results this year, and are planning to take 
full advantage of the new ability to average up to three years of 
participation data for schools, ensuring that schools are not penalized 
for one year anomalies.
2. The Use of Alternate Achievement Standards & Alternate Assessments 
        for Students with Significant Cognitive Disabilities
    Georgia is committed to including all students, including students 
with disabilities, in our state assessment and accountability systems, 
and we believe that the recent USED regulations addressing the 1% cap 
and the use of alternate achievement standards and alternate 
assessments for students with significant cognitive disabilities will 
allow these students to be included in a more valid, reliable, and fair 
manner.
    332 schools in Georgia did not meet AYP due to some factor 
involving the students with disabilities subgroup. Based on the best 
available data regarding GAA participation rates, however, Georgia does 
not expect this year to exceed at the state level the 1% cap on the 
percentage of proficient scores relative to enrollment that may be 
included in AYP based on alternate assessments aligned with alternate 
achievement standards. As such, we do not expect to seek an exception 
to the 1% cap this year.
    As Georgia works to enhance its statewide assessment system in all 
areas, we intend to review our alternate assessments as well to ensure 
a full range of assessments and accommodations that can most validly, 
reliably, and fairly include all students with disabilities, including 
those students with significant cognitive disabilities. At that time, 
we may seek an exception to the 1% cap for future years if 
educationally appropriate.
3. The Calculation of AYP for Limited English Proficient (LEP) 
        Students.
    Georgia is also pleased with the new guidance designed to provide 
states with new flexibility for Limited English Proficient students and 
the schools they attend. Now with the new guidance, we have more 
options to ensure effective LEP student participation in state 
assessments during their first year in a U.S. school and subgroup 
inclusion of LEP students for AYP purposes.
    In conclusion, as a result of No Child Left Behind, we can truly 
say for the first time ever in Georgia that we're focusing on the 
performance of every child in every classroom in every school across 
the state. We are fully committed to the ambitious goal of this 
legislation, and we are grateful to the United States Department of 
Education for giving us flexibility within the spirit of the law to 
enable us to achieve these standards and thus provide a quality 
education for all of Georgia's students. Thank you.
                                 ______
                                 

STATEMENT OF DR. JEFF McDANIEL, DIRECTOR OF SCHOOL IMPROVEMENT 
 AND FEDERAL PROGRAMS, FLOYD COUNTY BOARD OF EDUCATION, ROME, 
                            GEORGIA

    Dr. McDaniel. Thank you, Floyd County Schools would like to 
thank the Committee on Education for the opportunity to testify 
today. We have got some exciting things going on in Floyd 
County Schools relevant to the legislation No Child Left Behind 
and Adequate Yearly Progress.
    Two to 3 years ago when we were aware of No Child Left 
Behind and Adequate Yearly Progress, we knew immediately as we 
read the legislation and we looked at the foundational beliefs, 
the theoretical processes, the efficacy of the law, that we 
certainly knew in Floyd County we were going to have to develop 
a belief system that certainly aligned with our communities' 
internal and external stakeholders.
    But also we were going to have to line our vision with the 
state and where we were going with No Child Left Behind. There 
had to be a commitment that we had to share throughout our 
communities regarding our support for No Child Left Behind.
    After our beliefs had been established and we had shared a 
lot of No Child Left Behind with our community, we certainly 
looked to realign our curriculum action plan. And we did have 
to do some modification to our curriculum. A lot has taken 
place this year, all for the purpose of No Child Left Behind, 
and increasing student achievement and closing those learning 
gaps. That was very important to us.
    We truly believe that time on task, time in the classroom, 
student achievement, certainly a high part of that happens day 
in and day out in the classroom. And if we truly wanted to 
really close those achievement gaps, raise that student 
achievement, we were certainly going to need to extend our 
instructional time. And the best way that we have found out 
that that was going to be suitable for our school system was 
certainly to evoke a modified calendar, a calendar that added 
13 additional instructional days onto the academic school year. 
These 13 days would be coupled by what we call inter-session 
where three times a year throughout the year and we might more 
formally know this as a fall break, a winter holiday break, and 
a spring break. We would lengthen those breaks to include what 
we call inter-session or sessions where students will have the 
opportunity to come to Floyd County Schools and receive intense 
instruction primarily in the reading, English, Language Arts, 
and Mathematic areas which certainly parallel No Child Left 
Behind and Adequate Yearly Progress.
    We certainly set a priority of the student that we would 
like to attract to inter-sessions. And our goal is certainly no 
different than No Child Left Behind. By 2014 we will all be 
meeting expectations in Floyd County. We are very confident of 
that.
    But we really felt that on the road and as we reach our 
benchmarks year after year that the targeted student for inter-
session would be that child--and this is just a very general 
example specifically related to the CRC testing which is our 
assessment for K through 8 schools--we would target this child 
to come to inter-session that maybe scoring 275, 280, maybe 290 
on the CRCT; 300 and over is certainly meeting expectations. 
Below 300, 299 and below is certainly not meeting those 
expectations. But we felt with these 13 days of intense 
instruction sporadically positioned throughout the year that we 
could make a difference with these children, that we can see a 
10, 15 or 20 point gain come test time with these children due 
to these 13 days of instruction.
    Now, we certainly did not want to forget about the 
opportunity to educate all because that is firmly our 
foundational belief in Floyd County. All children will and can 
learn, so certainly the child who may be performing less than 
that maybe at the 220, 230, 250 level, I think we saw more of 
an action plan for our curriculum to incorporate a more intense 
before and after school program, a program that consistently 
throughout the year these children could come to, they could 
receive that intense instruction in the mathematics, and the 
reading and English, Language Arts and have that on a 
consistent basis. And we are very confident while we may not 
move all up to 300 in 1 year, we are certainly confident that 
as we watch No Child Left Behind and we implement those 
foundations, that by the year 2014 we will be there. And we 
will make high progression very quickly with these children.
    But to make sure inter-session was not just the only 
opportunity for children to come to receive some remediation, 
we have taken advantage of some Federal grants. For example, we 
have the 21st Century Learning programs in three of our title 
schools in the State of Georgia--or in Floyd County. These 
schools, they target the math and they target the reading and 
they target the instruction for students performing below the 
meeting expectations on the CRCT, but it also has a specific 
parent component wrapped into that, the parents have to 
participate with their child. Most of the time after school, we 
have Saturday sessions, we have special times throughout the 
year that parents certainly are incorporated in these programs.
    Another thing that we certainly examined in Floyd County 
was we wanted to provide some daily routine for students who 
might not be meeting expectations on the CRCT in math and 
reading. We incorporated a curriculum area that we have titled 
with the anagram LINKS L-I-N-K-S. It is Learning Insures Needed 
Knowledge and this is in place in our elementary schools and 
our middle schools and it targets the students who are scoring 
below the meeting expectations on the CRCT. We have a 14 to one 
student/teacher ratio in the elementary level, and an 18 to one 
in the middle school level. And these students receive extra 
instructional time each and every day in the math and reading.
    We believe math and reading are the foundational core 
curricula that guides the process of all other curricula. That 
if they have the comprehension skills and they have the 
knowledge to read at grade level coupled with the analytical or 
left brain thinking, that we truly believe we are creating a 
holistic learner, that they would be able to go forward in the 
other academic areas and be very successful.
    After the curriculum and the action plan was set and 
certainly it is a plethora of programs, as Ms. Cox stated 
earlier, we have suffered some budget cuts in our district and 
we have developed these programs using no local monies. We have 
taken advantage of the 50 percent with the Federal entitlement 
monies, we have also used our grant money to promote student 
achievement.
    One of the last things we did was our school improvement 
plans. We decided early on we wanted to be proactive, we did 
not want to be reactive to No Child Left Behind. We did not 
want to wait until a school was in need of improvement in the 
third year needing restructuring, and then try to figure out 
what the heck happened. We wanted to take the initiative now to 
prepare our schools not to go down that road. So, we have 
specifically written school improvement plans in each and every 
school. We sat down, the curriculum and instruction department 
in Floyd County, sat down with each and every principal at 
their school, their school councils, their PTOs and we wrote 
school improvement plans that specifically relate to No Child 
Left Behind, Adequate Yearly Progress. There are benchmarks in 
there, we are able to assess these by student goals matching 
the measurable objectives. It is empirical and it is powerful, 
and it has certainly brought a very clear understanding to our 
internal stakeholders or certified auxiliary personnel our 
efforts and attempts with No Child Left Behind. It has truly 
been a systemic and systematic way that we believe about No 
Child Left Behind in Floyd County.
    One of the last things that I want to mention is while we 
do not have a lot of quantitative results yet, a lot of these 
programs are brand new. The school improvement plans we are 
looking at our curriculum action plan, our inter-sessions, a 
lot of these are brand new this year. They have been 
implemented at the beginning of the year. We do not have a lot 
of quantitative data. We certainly will after we test our CRCT 
and we start developing our benchmarks and our foundation of 
where our kids perform in a measurable type of academic sense.
    But we do have qualitative, we do have the parents whose 
child attended inter-session who said my child over the 3 week 
holiday period in the winter and traditionally it is 2 weeks, 
ours is 3 weeks with 1 week of inter-session coupled in. This 
parent said that she has never seen her child so motivated to 
learn, excited about inter-session--loved every minute of it 
and was ready to come back to school. And this is just one of 
many examples from a parent. We had a child who attended inter-
session in the elementary grades in the fall who never read, 
never entered the media center, I do not even know if the child 
knew how to find the media center. But certainly during inter-
session there was an intensified constant area of reading that 
was being demonstrated and practiced by the students. This 
child loves to read now. And 1 day the media specialist saw the 
child entering the media center, and said I have seen you here 
three times this week, and he said after inter-session I just 
love to read. Those are the qualitative comments that provide 
us the needed assessments that we know in Floyd County we are 
heading in the right direction. And yes, we have done this on a 
shoestring, we have developed it with very little funding and 
absolutely zero local money. So, we are very proud of that.
    The last thing that I would like to say--I do not have to 
say this but I want to say this. I want to say that the Georgia 
Department of Education and Ms. Kathy Cox coupled with the 
Office of Student Achievement and Dr. Martha Rycliff who is the 
Executive Director, have just been more than helpful 
encouraging, acknowledging, caring, compassionate, in our needs 
to establish No Child Left Behind and AYP in our county. Every 
time that I call down there, it is an immediate response. If 
they cannot get back to us right away, the call certainly comes 
within a 24 hour period. Answers are given, we talk about 
things rationally, and I just cannot say enough about the 
support system. I truly believe that we would not be as far 
along in Floyd County with No Child Left Behind and Adequate 
Yearly Progress if it was not for the support of the Georgia 
Department of Education, both Ms. Kathy Cox and Dr. Martha 
Rycliff. I truly believe that.
    And finally, I would like to mention the U.S. Department of 
Education. Our flexibility--and when Ms. Cox has commented on 
flexible needs she is hearing from the school systems, she 
wants to hear from us, and we tell her, you know, LEP students 
are having a difficult time when they cannot speak the 
language. 95 percent is a very tough criteria to make, and she 
has open ears about that, and obviously things are getting 
communicated to the Federal level because we are seeing changes 
and I just want to tell you that Floyd County is very proud 
that we are being listened to and that there is flexibility 
handed down.
    Thank you very much.
    [The prepared statement of Dr. Jeff McDaniel follows:]

Statement of Jeffrey D. McDaniel, Ed.D., Director of School Improvement 
  and Entitlement Programs, Floyd County Board of Education, Rome, GA

Floyd County School System
    The Floyd County School system believes in the foundation, 
structure and integrity regarding the federal legislation of No Child 
Left Behind (NCLB) and the student assessment measurements pertaining 
to Adequate Yearly Progress (AYP). More specifically and narrowing the 
focus regarding the complexity of NCLB-AYP, the Floyd County School 
system recognized a need to conduct an assessment for the purpose of 
forming a belief system and curriculum action plan that summarized the 
intentions pertaining to NCLB-AYP.
    Continuing in this vein, our needs assessment revealed that we must 
systematically and methodically address and implement our NCLB-AYP 
belief system and curriculum plan. In addition, the Floyd County School 
system must give caution to avoid addressing too quickly to our 
stakeholders the many concentrated areas that form the NCLB-AYP federal 
law. Furthermore, we must give acknowledgement to the perplexing 
obstacles (i.e., a reduction in budgeted monies) that are currently 
facing our school system. The Floyd County School system believes that 
anything less than the aforementioned might possibly weaken our efforts 
toward successfully carrying out a well detailed and summarized belief 
system and action plan.
    The Floyd County School system developed a belief system that 
aligns with NCLB-AYP and supports the relative achievement levels of 
all students. In addition, our belief system is structured to be 
accountable toward closing all achievement gaps and ensuring that 
improvement regarding student achievement and learning will continually 
improve. The Floyd County School system operates on one basic belief: 
that by providing a detailed and comprehensive curriculum action plan 
that purports the components of NCLB-AYP that every child--regardless 
of income, gender, ethnicity or disability--can learn, and that every 
child deserves to learn. This belief clearly aligns with the 
foundational components of NCLB-AYP.
    The Floyd County School system clearly understands that forming a 
theorized belief(s) that includes a curriculum action plan can be an 
easy process; however, implementing and selling the belief(s) system 
and plan to our many stakeholders, internal and external, especially in 
times of economic difficulty, can be arduous at best. Therefore, it 
became a highly prioritized need that the Floyd County School system 
communicates clearly to all stakeholders the economic considerations 
our school system has been operating under for the past few years and 
assures that our new NCLB-AYP curriculum action plan would not further 
provide constrains to the school system budget.
    The Floyd County School system is comprised of over 10,000 students 
and we have experienced $7,000,000 of state budget reduction over a 
three year period. Given that prior to these budget reductions, the 
Floyd County School system operated on an overall budget of 
$80,000,000, it has required a comprehensive effort to maximize every 
dollar for the purpose of improving student achievement. In addition, 
our state requires a rollback in millage rate if there is a growth in 
digest based in reassessment of property. A recently passed school tax 
exemption for older taxpayers further compromised our funding sources. 
Therefore, our NCLB-AYP curriculum plan of action had to be a 
concentrated effort using limited resources to improve the most 
critical elements that impact student achievement. Our plan for meeting 
NCLB-AYP concentrates on two areas: 1) creating a more effective use of 
instructional time in a K-12 system-wide initiative and 2) revamping 
our school improvement and continual evaluation process.
Implications of NCLB-AYP Regarding the Development of a Curriculum 
        Action Plan in Floyd County School System
    ``Learning in America is a prisoner of time...Time is learning's 
warden.'' The National Education Commission on Time and Learning made 
this statement in 1994. American schools have the shortest school day 
and the shortest school year of any industrialized nation in the world. 
The Floyd County School system recognizes that our students spend much 
less time in academic endeavors than do the students with whom they 
will be competing globally for jobs, college placement, and 
scholarships. Knowing this a year and half ago and as we began to learn 
about the mandates of NCLB-AYP, we examined how we could use time more 
effectively both outside the school day and during the regular school 
hours.
    The Floyd County School system's NCLB-AYP Curriculum Action Plan 
begins with a newly modified calendar for the 2003-2004 school year 
that provides thirteen days of additional instruction through 
Intersession periods. Floyd County School system students, in effect, 
have the opportunity to change a 180 day instructional year into a 193 
day instructional year. The modified calendar is in the first year of 
implementation, and the formative quantitative and qualitative 
evaluations are showing us that the project has been very successful in 
raising the achievement of students who are not performing at grade 
level.
    The modified calendar is unique; whereby, the Floyd County School 
system begins the school year in early August and ends in early June. 
Every 45 days, we have a break ranging from five days to fifteen days, 
the longer periods being incorporated into winter and spring breaks. 
During these breaks, we operate thirteen days of full day instruction 
in all grade levels K-12 at all schools. Students are invited to attend 
based on their performance in the classroom and on standardized 
assessments. Committed to the goal of not simply reaching NCLB-AYP, but 
rather exceeding expectations, we offer both remediation and enrichment 
classes. The remediation classes focus on math, reading and language 
arts skills, while the enrichment classes focus on a wide range of 
topics that are not offered in the regular curriculum. Remediation 
instruction is individualized per the students' Student Support Team 
plans so the teachers pinpoint exactly the areas in which students are 
deficient, as well as having suggested strategies for improvement.
    In order for us to make this opportunity readily accessible to as 
many students as possible, we provide transportation, breakfast, lunch, 
and after-school care. These extras help to eliminate any barriers that 
might prevent a student from attending Intersession classes. Because 
the instruction is very intense and concentrated, we have chosen to 
intersperse brief periods of art, music, and physical education with 
the instruction. The teachers and administrators are Floyd County 
School system employees who choose to work off-contract time and are 
compensated at a per diem rate, based on their training and experience. 
The funding for this initiative has come from a creative and wise use 
of state remediation funding, federal entitlement monies, and grants. 
Thus far, we have operated three Intersession periods serving a minimum 
of 1800 students per session and have spent no general fund monies. A 
copy of the school year calendar (Attachment A) and a sample summary 
report from the fall Intersession period (Attachment B) are provided.
    Floyd County School system staffs have reported numerous success 
stories of students who have attended Intersession as a result of NCLB-
AYP requirements. For example, an elementary media specialist related 
the story of a reluctant fifth grade reader who had a history of never 
voluntarily coming into the media center. After the student attended 
Intersession, the media specialist began to notice an increase in the 
frequency of his visits to the media center. She also began to notice 
that he was routinely checking out books and passing his Accelerated 
Reader tests. When she praised him for visiting the media center, he 
proudly told her, ``I love to read because now I know how.''
    As part of the formative evaluation process, parents, teachers, and 
students complete surveys relative to the modified calendar and 
Intersession. One parent stated, ``Intersession opportunities need to 
be offered to ALL students regardless of academic level. My child 
benefited tremendously and it got him ready to study and learn again 
after a long Christmas break. He went back to school ``ready to learn'' 
when school started again.'' Students were a bit different in their 
opinions of Intersession. Many high school students commented that they 
did not like to attend Intersession and wanted to go to the beach 
during the break. They further commented that they had to work too hard 
during the Intersession periods and study too much. It is important to 
note, however, that these students would not have been included in 
Intersession if they had been performing on grade level during the 
school year.
    Students who are unable to attend Intersession are not exempt from 
receiving academic assistance. For example, Floyd County School system 
participates in the 21st Century Community Learning Center (21st CCLC) 
program, a federally funded program that provides assistance for 
students needing improvement in reading and math. Three elementary 
schools received a grant, totaling approximately 1.7 million dollars 
over the past two years. With these funds, we are able to offer 
Saturday and evening programs for parents and students, as well as 
additional services during the school day and the summer. While the 
academic focus for the student is on reading and math remediation and 
enrichment, the parent focus is on supporting and encouraging students 
to achieve higher academic goals.
    The 21st CCLC programs are located in Title I schools; whereby, the 
parental involvement has been traditionally inadequate. However, we 
believe this program provides a positive atmosphere and effort in 
helping our schools meet NCLB-AYP requirements especially in the 
assurance component of parental involvement which is increasing 
throughout our school system. This type of belief system supports the
    NCLB-AYP research that shows us parental involvement is a key 
component to student success and parallels the thoughts of Richard W. 
Riley, U.S. Secretary of Education, when he shared his intentions for 
teacher preparation in 1996:
        ``Teachers must learn new ways to involve parents in the 
        learning process. Thirty years of research tells us that the 
        starting point of putting children on the road to excellence is 
        parental involvement in their children's education.''
    The Floyd County School system's NCLB-AYP plans a two-week full day 
summer program offered to students in grades K-8. In addition, a half 
day program is available to high school students who have not passed or 
are in danger of not passing the Georgia High School Graduation Test. 
Our schools also offer after-school and before-school tutorials. Again, 
these programs are funded by state and federal monies, such as, Title I 
Supplementary Service funds, Title II, Title V, and state Instructional 
Extension funds.
    In addition, the Learning Insures Needed Knowledge (LINKS) classes 
were developed as a result of NCLB-AYP requirements. These classes, 
offered during the school day, are skills-based, cross-grade level 
classes that work with students' deficits in reading, language arts, 
and math. We believe very strongly that a student cannot achieve in 
science or social studies if he or she does not have basic math, 
language, and reading skills intact. We have incorporated the LINKS 
classes, as well as Intersession attendance, into our local promotion 
retention policy and allow them to serve a variety of purposes. A copy 
of the local promotion retention policy (Attachment C) is provided.
    Certain LINKS students have been promoted to the next grade level 
contingent upon their enrollment in these classes, while others are 
retained that might need the additional services provided through 
individualized instruction. The class sizes are very small; 14:1 in 
elementary school and 18:1 in middle and high school. According to our 
quantitative and qualitative evaluations, the LINKS classes have been 
very successful and teachers and administrators report marked 
improvement for the students enrolled in the classes. As we continue to 
evaluate and monitor this program, we are making the necessary 
adjustments to create even greater benefits for students who are not 
performing at grade level. The reduced class sizes and professional 
development for teachers and administrators have been funded by a 
number of state and federal remediation funding sources. Without the 
entitlement funding, this program would not exist.
Implications of NCLB-AYP on the School Improvement Planning and 
        Continuous Evaluation Process
    School improvement planning is not a new or innovative process. 
However, our school improvement planning process is unique in that all 
schools in our system have School Improvement (SI) Plans that are tied 
specifically to NCLB-AYP. We strive in all schools not only to meet 
NCLB-AYP criteria, but to exceed expectations. Our SI plans are 
``living documents'' that provide direction and information on a daily 
basis to parents, students, teachers, and administrators relative to 
the goals and objectives that the schools must reach in order to meet 
the requirements of NCLB-AYP.
    As we began to learn about the requirements of NCLB-AYP and our 
state's plan, we initiated an ``information blitz'' in our school 
system. Beginning with the Board of Education and moving into the 
central and school level administrations, the Curriculum Services staff 
provided workshops and informational sessions on the foundations and 
criteria of NCLB-AYP. We presented an informational PowerPoint 
presentation to every faculty member in our system, as well as various 
PTA groups, school councils, and civic organizations in our community. 
Therefore, when we began the school improvement planning process, we 
did so with the understanding and support of our entire learning 
community; whereby, we did not single out Title I schools or schools 
that had not made NCLB-AYP. Rather, we made a system-wide K-12 
initiative aimed at improving our overall program and student 
achievement for all students, including LEP and students with 
disabilities.
    Working individually with principals and their staffs, we developed 
plans that incorporated the NCLB-AYP requirements for school 
improvement, and yet addressed issues specific to the schools' 
individual needs. To ensure that the plans are meeting the stated goals 
and the students' academic needs, the curriculum services staff meets 
individually with principals to develop a mid-year progress report. In 
addition, a summative evaluation is conducted and student achievement 
goals are matched to student achievement results.
    After each school's NCLB-AYP School Improvement Plan was completed 
and the process was well under way, we developed a system plan based on 
the prioritized needs of each school. Therefore, the Floyd County 
System Improvement Plan supports each of the individual school plans. 
Attached are copies of actual plans representing elementary (Attachment 
D), middle (Attachment E), and high school (Attachment F) levels, as 
well as the system (Attachment G).
    Effective in the 2004-2005 school year, a new Floyd County School 
system teacher and administrator evaluation process will be 
implemented. The evaluation results are tied directly to student 
achievement. All certified system personnel develop a plan with 
measurable goals and activities, supported by professional learning, 
designed to increase student achievement. All plans are tied directly 
to the NCLB-AYP School and System Improvement Plan.
    Currently, the school improvement planning process in Floyd County 
School system clearly aligns with the expectations of our 
Superintendent, Mr. Kelly Henson, who, in a NCLB-AYP briefing abstract 
released to the Floyd County Board of Education and external media, 
stated that...`` progress toward continuous improvement relevant to 
NCLB-AYP is currently taking place in each school. The Curriculum 
Services staff is currently working with principals and their schools 
toward identifying areas of strengths and weaknesses. This 
collaboration will promote the formulating of productive school 
improvement plans that assess, plan, implement and evaluate formative 
goals. In addition, a NCLB-AYP PowerPoint presentation is being 
presented at every school for the purpose of continuity and 
understanding. We have invited and continue to invite anyone interested 
in learning about NCLB-AYP to one of these sessions.''
Implications and Concerns Involved in Implementing NCLB-AYP
    The Floyd County School system believes the No Child Left Behind 
legislation has been a double-edged sword. The positive side of the 
legislation is that educators are now being held to a higher level of 
accountability. We should be held accountable for the academic success 
of our students. The fact that all school systems in the country must 
be held to the same level of accountability is positive.
    However, the legislation guidelines initially left a wide margin 
for interpretation by the individual states relative to the definition 
of ``meeting standards''. Georgia was one of the first states to submit 
its compliance plan. In the spirit of true accountability, a committee 
of Georgia educators set the goals high, understanding that all states 
were expected to do the same. When all the state plans were revealed, 
it became evident that many states' plans called for varying levels of 
competency. Therefore states, such as Georgia, have a much higher 
number of ``failing schools'' simply because our standard is set at a 
higher level, and not because our schools are producing inferior 
students academically.
    The United States Department of Education (USDOE) has, to the best 
of our knowledge, been forthright in listening and, more importantly, 
responding to our concerns as educators regarding the implications of 
NCLB-AYP. For example, just recently the USDOE released specific 
guidance that has allowed further flexibility for the states regarding 
the 95% test participation rate and the testing of Limited English 
Proficiency (LEP) students. However, the Floyd County School system is 
still concerned regarding our special education students.
    The Floyd County School system educates over 10,000 students; 
whereby, approximately 2000 students are receiving special educational 
services. Given the assessment requirements set forth by NCLB-AYP, one 
percent of our total test takers may take the Georgia Alternate 
Assessment (GAA) and not be penalized under NCLB-AYP. However, this 
percent equals approximately 100 students out of the 2000 students we 
serve in special education. More specifically, approximately 1900 
special education students are expected to take a standardized 
assessment and pass on grade level.
    As mentioned previously, the Floyd County School system believes 
that all students can learn and that we should be held accountable for 
the continuous progression of achievement for all students. For 
example, if a fifth grade student is being served under the Individuals 
with Disabilities Education Act (IDEA) and all previous cognitive 
assessments along with their Individualized Education Plan (IEP) reveal 
that the child is functioning on a third grade level, we believe this 
student should be tested on the third grade level. And, if the test 
results show a decline relative to previous year test scores regarding 
this student, then we should be held accountable. However, if the 
child's test results reveal that they have shown academic achievement 
from the previous year assessment results, albeit not quite at grade 
level, we should be considered as fulfilling our obligation as 
educators; whereby, achievement for all students will progress year-
after-year.
    Considering all the aforementioned, the Office of Student 
Achievement (OSA) and the Georgia Department of Education (GDOE) are 
invaluable resources for the Floyd County School system as we attempt 
to determine further actions that we should take in regard to meeting 
NCLB-AYP requirements. We have found Dr. Martha R. Reichrath, OSA 
Executive Director, Mrs. Kathy Cox, State School Superintendent and 
their staffs to be cooperative, encouraging, and sensitive to our 
concerns about the well-being of all our students. We have asked many 
questions and posed many possible scenarios regarding potential 
problems with NCLB-AYP compliance. For the most part, the OSA and GDOE 
have always acted on our questions in a timely, courteous and 
professional manner. When hesitations have occurred with questions we 
have asked regarding NCLB-AYP, we do not believe that the OSA or GDOE 
have been negligent in responding to us. When hesitations have 
occurred, we believe the OSA and GDOE were waiting for forthcoming 
responses at the federal level.
    The changes that NCLB-AYP have brought to our school system can at 
times be overwhelming and complex. Without the assistance of Dr. 
Reichrath, Mrs. Cox and their staffs, Floyd County School system would 
be struggling with legislation that we did not understand. The Floyd 
County School system truly believes that we and the entire state of 
Georgia, are in this ``thing'' together and for every day that we do 
not understand our role in implementing NCLB-AYP, is another day we 
lose toward providing appropriate achievement service to our students.
    The Floyd County School system is confident that our system will be 
successful toward achieving NCLB-AYP. As previously mentioned, we 
believe in the foundation, structure and integrity regarding NCLB-AYP. 
In addition, NCLB-AYP has been a part of the process toward realigning 
our curriculum programs in order to meet systematically, the 
foundations and processes of this federal legislation. The Floyd County 
School system is excited and enthusiastic about the positive programs 
we have implemented for the purpose of improving the learning of all 
students.
    The USDOE does an outstanding job of communicating changes and 
suggesting strategies for improvement regarding NCLB-AYP. They have 
listened to our concerns about NCLB-AYP and, when necessary, provided 
the needed flexibility and guidance toward achieving NCLB-AYP. In 
addition, the USDOE has provided a wealth of information to our local 
system relative to explaining and communicating NCLB-AYP to our 
learning communities. We could not have created our successful belief 
system and curriculum plan of action without the encouragement and 
support of the USDOE.

    [Attachments to Dr. McDaniel's statement have been retained in the 
Committee's official files.]
                                 ______
                                 
    Chairman Boehner. We thank all of our witnesses for your 
excellent testimony. And Ms. Cox, let me congratulate you and 
your predecessors here in the state of Georgia, because Georgia 
was doing much of what we asked for in No Child Left Behind 
long before No Child Left Behind was enacted. Georgia was one 
of the few states that took seriously the law that was written 
in 1994, the Elementary and Secondary Education Act, and its 
reauthorization that requires states to set standards of 
learning, to revise curriculum, to develop assessments, and we 
built No Child Left Behind on the foundation of the 1994 Act.
    And for those states that were actively engaged in setting 
standards and assessing students, they were far ahead of where 
some states now find themselves. But Georgia has been a leader 
in this effort and I think all of us on the Committee and at 
the Department appreciate the relationship that we have had to 
be able to work through many of these issues. Because the 
concerns that get raised here and ideas that get raised here 
have been incorporated not only into the basic bill, but into 
some of the changes that we see.
    Now in Washington, we do two things, we do public policy 
and unfortunately we do politics. And when it comes to the 
issue of funding No Child Left Behind, there has been an awful 
lot of politics. And with all due respect to my good friend 
from the Atlanta area, let us talk a little bit about funding 
No Child Left Behind. The commitment was made, and I was in the 
room as one of the authors of the bill, that there would be a 
significant increase in funding from the Federal Government to 
assist with the implementation of No Child Left Behind. And 
that is exactly what has happened.
    In fiscal school year 2001, the Federal Government was 
spending about $24 billion a year implementing the elementary 
and secondary education programs. Last year we spent $34.6 
billion, about a 40 percent increase in the major programs in 
No Child Left Behind, and I would suggest to you that we have 
met our commitment.
    We always hear this talk about authorization levels versus 
appropriation levels. And I will just give you an example, in 
1995 we had President Clinton--this is the 1995 fiscal year 
which would have been written in 1994, we had a Democrat in the 
White House, and we had a Democrat Congress and there was 
authorized $13 billion for elementary and secondary education 
programs, we actually we spent $10 billion. Authorization 
levels are maximum amounts to be spent in those years, not 
minimum amounts to be spent. There was no criticism of 
President Clinton, there was no criticism of the Congress in 
1995 or any time during that period, because Congress was not 
authorizing it fully or it was not appropriating the fully 
authorized amount.
    As a matter of fact, if you just want to look at Title I, 
during the 8 years of President Clinton, there was an 
additional $2.4 billion spent in Title I funding. President 
Bush exceeded that increase in 2 years with a $2.9 billion 
increase. I could go on and on.
    How about IDEA grants to the states--an almost 300 percent 
increase over the last 9 years.
    Let us just get it down to a local level. In 2001, the 
Federal Government sent Georgia about $390 million for its 
basic K-12 programs. Last year, we sent $640 million to Georgia 
to help with the implementation of No Child Left Behind. The 
point is, has there been a significant increase in Federal 
resources? There has. Do I believe the Federal Government has 
met its commitment to state and local schools for the funding 
of the No Child Left Behind? I will say yes. Could we spend 
more? Absolutely. Would the schools like more? Absolutely. Will 
we ever have as much money as we want? I will not and neither 
will our schools.
    But I appreciate the excellent testimony.
    Let me begin, Dr. McDaniel, with a basic question. What do 
you believe was the principal change that you had to make in 
your schools in order to meet the demands of educating every 
child?
    Dr. McDaniel. Well, I really think it was an attitudinal 
change and adjustment. I truly do. And developing a belief 
system that across the county we share in the vision of our 
superintendent, I really believe that. We did in our county 
what we call an information blitz and we certainly went out to 
all internal and external stakeholders, community 
organizations, civic organizations throughout our county and 
presented what was at the time brand new legislation, a state 
generated PowerPoint that we operated, and we educated our 
stakeholders about No Child Left Behind, AYP.
    This year we offered choice in three of our public 
elementary schools that were Title I, which by the way I need 
to say last year all our Title I schools made AYP. We offered 
choice in three of those schools and only one parent in one of 
those schools out of about 2000 students took or evoked what we 
call choice. And it had nothing to do with the availability to 
chose another school, it happened to be a disagreement on an 
issue. So, I might say that child is back at that regular 
school. And I say that to answer your question, because I think 
it was through our education of our teachers, and our 
faculties, our staffs, our parents, our stakeholders that when 
we had a school that did not quite maybe meet the progress 
required with No Child Left Behind, they knew we were on the 
right track. And they knew what we were striving to achieve and 
they knew with our curriculum action plan, we had aligned our 
system to well meet the goals of No Child Left Behind. They had 
confidence in their schools.
    Chairman Boehner. Well, I tend to agree that as I have done 
these hearings and meetings all across the nation, that the No. 
1 change that is occurring in our successful schools is a 
change of attitude. That every child deserves a chance at a 
good education and the challenge of figuring out how to provide 
that education to that child. Let me also suggest that the 
other part of what you did by educating your community is I 
think another key to success, especially for low income 
children. Where the infrastructure at home and maybe the 
infrastructure in their neighborhood is not quite there, those 
child come to school with a great disadvantage especially to 
their more advantaged peers. And truly I think if we are going 
to succeed in educating every child, we need to build more 
infrastructure at home, getting their parents more involved in 
their education, we cannot rely totally on the schools to do 
everything here.
    But I also believe that infrastructure in a community and 
whether it is boys clubs, girls clubs, after school programs 
that you referred to, the first tee program that uses golf as a 
way of teaching kids values, these types of programs and 
infrastructure need to be introduced. I think that can be a 
great asset, and a great assist in helping schools meet their 
challenges.
    Let me talk a little bit about the requirement to have a 
highly qualified teacher in every classroom, and, Dr. Hickok, I 
think you can probably outline pretty briefly what the law 
requires and then discuss--you can talk about how Georgia is 
attempting to deal with it.
    Dr. Hickok. Well the law requires the obvious really, and 
that is that every student have as a teacher someone who has a 
combination of experience and qualifications that we call 
highly qualified. Undergraduate degree, teaching certificate, 
and demonstrated competency in the academic subject area that 
he or she is teaching. How that is carried out is really up to 
the state. The state is the entity that determines how to put 
meat on the bones of HQT. The challenge we confronted was in 
some areas current teachers, current excellent teachers with 
years of outstanding service, do not at this moment satisfy the 
requirement of HQT as outlined in the law and as implemented at 
the state level.
    In rural areas, for example, we have teachers who teach 
students from K through high school or they teach high school 
students everything from math to science to history, to English 
and they do not have a degree or have demonstrated, quote, 
competence in each one of those content areas. And so one of 
the things we did with the flexibility provisions was try to 
give those teachers working with the states more time to 
demonstrate their competence in the various areas they teach, 
especially if they are already highly qualified in at least one 
of those areas. The same can be said for middle school teachers 
across the country where many of them teach in various 
disciplines. Special education teachers I think represent still 
an ongoing challenge, because in this country I think it is 
fair to say most special education teachers were certified in 
special education, that is what they wanted to do, and frankly 
they deserve a great deal of credit for taking up that 
challenge.
    But at the high school level if they are teaching in a 
regular classroom content area as well as special education. 
So, they are teaching special education students English, for 
example, at the high school level. Technically they have to 
demonstrate competence in the subject of English as well as 
special education, and that remains an ongoing challenge in how 
we are going to deal with that.
    And Georgia could speak to this, Kathy could speak to this, 
those are the broad parameters of the law, there are 
distinctions both at the elementary, and middle as well as the 
high school level. But how a state takes the statute and makes 
it work in the state really is the product of state action.
    Chairman Boehner. Ms. Cox, how is Georgia implementing the 
highly qualified teacher requirement?
    Ms. Cox. Well, we are well on our way and I want to also 
apologize that I cannot give you numbers and so forth. The 
Professional Standards Commission--and it is a separate entity 
from the Department of Education--has been handling 
certification for over a decade in Georgia and the director, 
Dr. F.D. Toth, is not here with us this day. But I will tell 
you what I know from working with him very closely over the 
last several months. We have a computerized house, which is the 
way the school systems can put data in to see if the teacher 
can met the definition. And that has been up and running in our 
state for our school systems over the last several months, and 
from my understanding the U.S. Department has complimented 
Georgia in how we have used our technology to make this 
accessible to our teachers and our personnel directors across 
our state, in a very timely manner. So, the good news is our 
districts have a very clear understanding of who meets the 
definition of highly qualified and who does not. And that is 
the first essential step.
    Our problems right now in Georgia deal with the issue of 
the three things you just talked about--the middle school 
certification where the teacher may have a concentration but is 
asked maybe to teach two or three periods of social studies, or 
a period of science when their concentration in middle grades 
has been in English or something like that, due to staffing 
issues. So, that has been a problem, our social studies 
certification is also a problem because currently in the State 
of Georgia most of the people who teach middle school and high 
school are broad field social studies certified. And they do 
not have a particular history, econ degree, and so therefore 
this broad field certification, where even if you had a 
particular focus, like in my case I was a social studies 
teacher but I had a degree in political science. Well, the 
concern is now I would not be able to teach world history even 
though I was certified because my degree was in political 
science. So, we are dealing with that issue but that one has 
been a tough one.
    And the other issue about special education, Georgia like 
most states is not unique in this area where people are 
certified, but what we are doing in using No Child Left Behind 
and Highly Qualified, is not suggesting that we go back and 
just redo certification for special education but actually this 
we hope can drive the inclusion model. That actually what we 
hope will happen in the State of Georgia because of highly 
qualified, that we will be able to get many of our students in 
the upper grades out of the self-contained classroom. They will 
be put into a regular class with the highly qualified teacher 
with the special education teacher as the teacher support 
teacher and not the official teacher of record. That is a model 
that we know helps student achievement particularly in the 
content areas of science and math and we have, I am sorry to 
say, a horrible track record of achievement of our special 
education students in being able to pass our high school 
graduation tests in science and math and social studies 
currently. And we believe one of the biggest problems is the 
fact that due to the resource room and the fact that these kids 
have not been exposed to the same level of standards and the 
same high level of content, that then when they are asked to 
take that exit exam, they just have not been exposed to it.
    So, we are actually using this highly qualified definition 
to drive inclusion and to say the way you do it is you got to 
get those kids in the regular ed. room. And that is going to 
benefit us tremendously.
    Chairman Boehner. My time is up, I have over-used my time. 
Let me yield to Ms. Majette.
    Ms. Cox. OK.
    Ms. Majette. Thank you, Mr. Chairman, and let me thank all 
of the witnesses for being here today, and for being so engaged 
in this process of trying to do the best that we can for all of 
our children. And I want to say again to Ms. Cox, that I really 
have appreciated your willingness to sit down and talk about 
these issues. It is really and--Mr. Chairman, I know you will 
appreciate this--I believe and I know that Ms. Cox believes 
that this is not a partisan issue, our job is to do the best 
that we can for all of the children of this State of Georgia 
and for all the children of this country. And frankly, just 
because there was not sufficient funding earlier on in other 
administrations does not mean we should not rectify that 
problem now. And, Mr. Chairman, had I been in Congress during 
that period of time when the Clinton administration was 
proceeding, I would have been raising the same issues because I 
believe that the education of our children, all of our 
children, at the very beginning creates the foundation that we 
absolutely have to have in order for us as a community and as a 
nation to achieve what we want to achieve. Everything hinges on 
each and every one of our children having access to the 
information, access to the resources that will allow them to be 
the leaders that we need them to be, as we are moving into the 
21st century.
    And so, it really is important that we are discussing these 
issues and I am glad that, Ms. Cox, in particular that we have 
been able to make some progress on some of the concerns you 
have had regarding the 95 percent and some of those other 
issues.
    But let me shift for a moment and ask you, Dr. McDaniel, 
you talked about this issue of focusing on academic achievement 
beginning in sort of the later elementary school years and then 
the middle school years. And the issue of strengthening reading 
and math skills at that level. So, let me ask you your views on 
whether or not it would be important to focus resources earlier 
in the process, for us to put more funding into Head Start so 
that children will be able to be ready at an earlier age when 
they get to school so that they will not be left behind. 
Whether we should focus more on funding for art and music, 
because studies have shown that the exposure to that enables 
children to succeed and do better in math and science. And when 
we these challenges with respect to the budget and as Secretary 
Cox knows that is where things are cut out. We cut out programs 
for music and we reduce the level of funding for music and art, 
which really do have an impact on students' ability to succeed 
later in those other--in the math and science arena. Could I 
just have you comment on that?
    Dr. McDaniel. Absolutely.
    Ms. Majette. Thank you.
    Dr. McDaniel. I think your concerns are thought processes 
that Floyd County parallels with. We are one of some school 
systems--I am not sure how many in the State of Georgia--that 
participate in the Even Start Program. We have the Even Start 
Grant that basically look at children at birth up to the third 
grade and certainly with the parental component entwined with 
that gets these children ready for school. It is critical that, 
those primary years are certainly critical and our 
participation in the Even Start, our use of grant funding to 
make that happen is certainly--we are very proud that we have 
the program in Floyd County. I agree wholeheartedly on the art 
and music. In fact, to make sure that our inter-sessions were 
not too intense in the math and reading, language art, those 
curriculum areas that are measured with No Child Left Behind, 
we interspersed daily in our inter-sessions opportunities for 
children to participate in the art and in the music as well. 
Because we believe as I said earlier our children in Floyd 
County will be able to compete globally, but they are holistic 
learners they learn in a lot of different venues, they learn in 
a lot of different modalities. Art and music as just some 
examples of those modalities. So I agree with you, and 
certainly in Floyd County we noticed that, we recognized that, 
it has been part of our plan to make sure that the child even 
before they come to our school at Even Start at birth, one, 2 
years old, that we are sending workers to the home to get these 
children and the parents ready for what we believe is going to 
be a successful education.
    Ms. Majette. And so you have been able to use the Even 
Start Program which allows parental involvement and having the 
parents be involved with their children to prepare them for 
school. You say the Even Start Program has been a great help to 
you?
    Dr. McDaniel. Oh, absolutely, yes.
    Ms. Majette. So, I guess you are aware that in the Bush 
budget this year for 2005, they are terminating all the funding 
for the Even Start Program. How are you going to address that 
lack of funding at this point?
    Dr. McDaniel. Ma'am, I am the director for school 
improvement for Floyd County Schools, I am not aware of that 
politically, that is certainly something that I am assured that 
we will address, as it is brought to our attention, if it even 
comes to my attention, but certainly in handling the Even Start 
Program right now today, it is an active part of our curricula, 
yes ma'am.
    Ms. Majette. I am glad to know that on the level on which 
you are operating, that the program has been successful for you 
and I hope that you will be able to continue to receive that 
Federal funding.
    Dr. McDaniel. Thank you.
    Ms. Majette. Because under the budget as it is proposed 
right now it will not be there for that program. Thank you.
    Chairman Boehner. The Chair recognizes the gentlemen from 
the 12th District, Mr. Burns.
    Mr. Burns. Thank you, Mr. Chairman, I appreciate the input 
from our witnesses and I really want to thank certainly Dr. 
Hickok for his presence here today. I would just like to make 
the audience aware that we have been very fortunate in the 
12th. Secretary Rod Paige, was here last year down in Savannah, 
we spent some time in Chatham County and in Effingham County we 
met with our school superintendents from throughout the 
district as well as our university president, I appreciate 
that. So, Secretary Paige has been here and now Deputy 
Secretary Hickok is here to help us do a better job of 
implementing what I think is a landmark legislation for our 
nation.
    I also want to thank this community, Augusta, Richmond 
County Schools Superintendent Charles Lark for his work, they 
have made great progress here, Superintendent Cox. Jeff Padgett 
is the president of the local school board, he has been very 
involved in the whole school system. I want you to know I 
visited three, actually four, outstanding schools in this 
community--C.T. Walker, I appreciate Ms. Paula Baker being 
here, she is the principal there, today a Georgia school of 
excellence in Richmond County, one of the inner city schools; a 
wonderful school, Johnson Magnet School, that received a great 
award, a national award achievement; and I want to especially 
recognize Lucy Laney High School. Now Lucy Laney High School is 
unique in the fact that it did not get an award but it improved 
SAT scores 100 points year to year, that is phenomenal. This is 
a wonderful school.
    [Applause.]
    Mr. Burns. So, I want you to know that the people in 
Richmond County and Augusta are working hard to improve 
education here and I am delighted.
    When we talk about change and we talk about implementing a 
new approach toward education, it is refreshing to hear the 
input of Dr. McDaniel and your willingness to be innovative in 
the way you organize and deliver and plan a calendar. How 
difficult, Dr. McDaniel, was that for your community to 
embrace, both the teachers and the administration and maybe the 
students and parents?
    Dr. McDaniel. Well, it was difficult, sir, when we called 
it year round.
    [Laughter.]
    Mr. Burns. Wrong term.
    Dr. McDaniel. So sometimes the terminology can be 
everything. And once we went to the modified calendar phrase, 
it started to be accepted at very, very high levels. Certainly 
there was some apprehension from our communities in the 
beginning and not just with the education internally of their 
child. But with other children and siblings in the family, 
about day care and some of the other things and other variables 
that we certainly took into account as we set up the plan and 
parents certainly rose and asked about. But in our first year 
of implementation and we have done three--we have done two 
inter-sessions, one we have received our qualitative feedback, 
our survey, our questionnaire that went to the teacher, 
students, and parents that basically and just very briefly says 
what do you think of inter-session, there was 10 or 11 coupled 
in questions.
    And we have spent time looking at those results and 
disseminating between the parents and our teachers, and our 
community their thoughts on inter-session. And overall 
qualitatively with a lot of intervening variables that have 
taken place with this survey that we have not overlooked, the 
remarks are very, very positive. And the reaction to change in 
the beginning is that we wanted to educate the community No 
Child Left Behind, new modified calendar, some of the 
curriculum change, not all at once but in a very slow process. 
No Child Left Behind, two or 3 years it has been around and we 
are now implementing our modified calendar. So, we took the 
time one, 2 years, to educate our community that we had a good 
thorough knowledge of why we were doing the modified calendar. 
Not that it was just kind of a thing that we wanted to do, but 
theoretically we had a framework where we were heading in our 
vision. And certainly our superintendent did a wonderful job in 
sharing that.
    Oh, yeah, concerns arose but they were addressed and 
answered and I think because of our ability to certainly have 
what we might say our ducks in a row, regarding the modified 
calendar and questions that we might receive from our external 
stakeholders, we were able to answer those questions very, very 
quickly if we were in a public colloquium at a meeting and a 
parent had a question we answered it immediately. So, it 
certainly brought a lot of easement to our parents as we, you 
know, kind of stepped outside of the box to do a modified 
calendar.
    Mr. Burns. I appreciate what Floyd County is doing. I want 
to say that I have seen that also in Clarke County Georgia, but 
not on a system wide basis, at an individual school basis. I 
will tell you my home county of Screven is going to a modified 
calendar this coming year and it is going to be a change for 
our rural school system. But I think it is going to really help 
us as we move forward in that area.
    I want to shift gears for a second. You know, when 
Superintendent Cox was talking about the challenges that you 
faced I would like maybe for Dr. Hickok and Ms. Cox to respond. 
When I had Secretary Paige down here and we were meeting and 
these issues of attendance came up, these issues of special 
education came up, these issues of disaggregated data and the 
need to ensure that every child in every subgroup indeed had an 
opportunity to be successful. Again, Dr. Hickok, sometimes 
people I think misperceive the department's desire to work with 
the states. You addressed the issue that we are not moving 
backward we are moving forward. Is that a fair statement as far 
as flexibility, as far as dealing with these unique issues from 
teacher qualified, you know, the qualifications for teachers 
and how we identify those, but also from saying Georgia, tell 
us your problems and let us see if can find a way to work that 
out, is that a fair assessment?
    Dr. Hickok. Obviously I think as we were beginning the 
process of implementation, the regulations were written, they 
were published. As the state plans were beginning to be 
developed at the state level, we invited delegations from every 
state. Georgia came with Kathy Cox, who was brand new to her 
job, by the way. With their best technical experts in 
accountability they came to the department. I think 47 states 
took us up on the invitation for what we called conversations 
without consequences, behind doors, candid give and take, to 
make sure that the people in the Department of Education gained 
an appreciation for how a state gets to where it is, and how a 
state's challenge needs to be met, and how we can help. I think 
that was a transformative conversation for the Department, we 
learned something about all the different states. We learned 
that some school districts in Maine are on islands miles out in 
the Atlantic Ocean--talk about a rural school district. We 
learned of the challenges every state has. And then of course 
we went to the states with teams on accountability as they did 
their plans, so from day one the goal here has been to create 
not a compliance mentality but a partnership.
    Now it has been a difficult partnership at times, some of 
these conversations are pretty candid, pretty tough. But the 
one thing that has been in place the whole time is this mutual 
commitment to this over-arching goal. And those conversations 
continue. Ms. Cox has sent to the Department of Education 
recommendations to amend their accountability plan. I think as 
a matter of fact, 47 states have done that as well. And our job 
now is to sit down with her and her leadership and decide how 
best to accomplish what is best for Georgia within the letter 
and the spirit of the law.
    So flexibility is not just a term, it is sort of a mindset. 
Dr. McDaniel mentioned that the biggest ingredient in change 
has been attitude. I think two things go to support that 
attitude, our attitude is flexibility and partnership and 
ownership. He has demonstrated, she has demonstrated, people 
all over this county have demonstrated a sense of ownership of 
this issue, and the attitude to get it done, and flexibility at 
the national level needs to be a big part of that.
    Mr. Burns. Superintendent Cox, as you work with not only 
the Department of Education, but with our local school 
districts, do you feel that we are getting the kind of 
cooperative partnership that we are going to have to have to be 
successful?
    Ms. Cox. Oh, absolutely, absolutely. And from conversations 
in person, to willingness of Departmental officials to come and 
visit Georgia, to also an awful lot of phone calls to staff 
that know us by first name. And always again, much as you feel 
you are getting support from us, we feel as a state department 
when we have a burning issue and we have a real concern, we are 
able to pick up the phone and get an answer, and that has been 
tremendously helpful.
    Just an example, we had a school system that had Title I 
money that was left over that was specifically identified and 
they wanted to be able to figure out a way to carry it over or 
possibly get an extension on when that money ran out. Because 
they understand the rules of that and what they have to do to 
use up that money. Well, they had called me to figure out what 
they could do and of course the letter of the law, you know, 
says you cannot get an extension. So they wanted to have us 
call Washington and see if that--so we did, we called 
Washington and they said, no we cannot grant an extension on 
that.
    So then I had an opportunity to be in Washington, a couple 
of weeks ago where I had a face-to-face conversation with some 
of the staff of Ray Simon, who then when we presented the 
problem he said, they are right you cannot get an extension but 
he said have you thought about this. Have you though about 
turning that money over possibly over to a regional education 
service agency and then they can use that money to contract 
with the teacher. Well, all of a sudden we had a solution, we 
are following the law we are not doing, but we had flexibility 
and we were able then to call that school system and give them 
a solution to the problem.
    And that is the kind of service we are getting and it is 
because they are not only service-oriented, but I will also say 
they have got an awful lot of smart people working up there 
that are helping us. So it has been very positive.
    If I could just take a moment and say too with all candor, 
a lot of the issues that Georgia faced with this first year of 
implementation was unfortunately some of our own doing, some of 
our own making, some of the controversy and chaos that we have 
experienced as a state within the education circles. That was 
complicating many of the issues that these local school systems 
then had to face with No Child Left Behind. Again through no 
fault of their own, we had a testing debacle last year that I 
think probably took us off the radar screen. I know other 
states are experiencing some problems with testing, and 
Michigan might argue with me about debacles. But we inherited--
my administration, we inherited such a mess with a contract 
with testing, with problems with the technical aspects of the 
testing, we had to cancel tests last year. I mean it was just 
horrible and that all affected our school systems' ability to 
do and get ready and get the data they needed. So, you know the 
Federal department has worked with us through all of that to 
make sure that we still could be in compliance and so forth.
    So, I really--you know, what my job has been is to try to 
get our infrastructure at the state level and our leadership at 
the state level in place to help districts do what they need to 
do for this law. And I feel--thank you for the compliments too, 
because I feel we have been rather successful in that effort. 
We still have some issues with the collection of data we are 
going to be working on as well, so that that task is not so 
onerous on our local systems particularly in this era of state 
budget cuts. We recognize that getting all the information we 
need to make these determinations can be quite cumbersome so we 
are working again to fix that.
    It is hard, it is just--this is a lot of hard work and I am 
just so happy that across this state what we have got are these 
dedicated educators who understand that this is crucial for 
Georgia. This is absolutely crucial because if we are ever, 
ever, ever going to get serious about the problems we have had 
in education, a 40 percent dropout rate that still plagues us, 
a low achievement on the SAT, the fact that we have many 
students who try to graduate from high school in special 
education but then cannot get that coveted diploma. I mean 
these issues that have been with us for decade after decade, 
and we realize that this law is that lever that we have needed 
for so long to get us up over that next hill, and to see our 
kids achieve.
    And I will say it this way I spoke to a superintendent who 
shall remain nameless, but he said to me he said, as hard as 
this had been and as tough as this is, he said this law No 
Child Left Behind has allowed for me to do for kids what local 
politics in the past would have never let me do. So that is why 
we have to just stay the course and keep working and see where 
the problems are, because they are going to continue to pop up 
and then figure out solutions. And again, I will just add to--I 
said this in our board meeting, I was fortunate to be in 
Washington and enjoy the cherry blossoms and took my kids to 
the Air and Space Museum and you know as I listen at our board 
meeting to some of our problems that we are encountering as we 
try to revise our curriculum and how are we going to train 
teachers, and how are we going to do this, and how are we going 
to that. I was just thinking about all that stuff I saw in the 
Air and Space Museum, I said, you know, if we as Americans can 
do what we have done here, I know we as Georgians can figure 
out how we are going to educate all kids. I just know we are. 
Thank you.
    Mr. Burns. Thank you. I just want to shift gears for just a 
second, you were talking about Head Start. We re-authorized 
Head Start last year in the Congress, in the House, it has not 
moved to the Senate. But Georgia enjoys a very positive pre-K 
and fully funded K program. We need to begin partnering Head 
Start with education. And I think one of the things I would 
like maybe you to respond to, Superintendent Cox and perhaps 
Dr. McDaniels, is how can we more effectively bring Head Start 
and education together in Georgia.
    Ms. Cox. Well, I think the first step has been our own 
Governor kind of reorganizing state resources and programs in 
something he is calling Bright from the Start where he is 
attempting to do just what you are talking about. Connect our 
preschool program with the other efforts that have been going 
on both at the state and Federal level. Early learning 
initiative, we had something called Jelly, as well as the Head 
Start Program. And pulling these together for a more effective 
comprehensive approach to the zero through 5 years. We also 
with Even Start whatever happens in the future with that 
program, we recognize too that it makes sense for that Even 
Start Program that works in those same years to be coupled with 
our very successful pre-K program in the Office of School 
Readiness.
    So whatever happens in the future of Even Start, they are 
going to be more connected to our preschool program as well as 
to the Department of Education. So that we can have more 
cohesiveness across the board and a better approach instead of 
just the piecemeal.
    Mr. Burns. How does that work, Dr. McDaniel, in Floyd 
County, the Head Start--and let me say I was in an Even Start 
Program in Athens, Georgia last week. They do a wonderful job, 
it is a wonderful combination of GED for the potentially adult 
learner, to prepare the parent to be a good mentor and 
supporter of their child's education. It provides excellent 
support for the children in those early years and I think my 
good colleague from Georgia, Ms. Majette, recognizes that there 
is a lot of discussion between what the administration may 
propose and what the Congress may ultimately come to an 
agreement on. I just want to say that Head Start in Floyd 
County, how effectively can you partner with that program?
    Dr. McDaniel. I am going to tell you we have a powerful 
program with Even Start. We partnered with Coosa Valley 
Technical College, they supply the building, we supply what we 
call the family learning center. We look at students who are 
enrolled in some of our higher deprivation schools, we look at 
those students to see if they have siblings. We are out in the 
communities talking, we have resource coordinators that that is 
their job. They locate at-risk parents and young children that 
might benefit attending the family learning center. Coosa 
Valley couples that with opportunities to get into some post 
secondary work for these parents. A lot of these parents will 
come and work on their GED while their younger child, two to 3 
years old, is in the trailer learning skills getting ready for 
pre-K. Then they come together and they do pat time and they 
have experiences together and we go to their homes and we have 
visits. We help them medically, so it is powerful, the 
relationships that we are building, that I know in the future 
is going to pay dividends in Floyd County.
    So our partnerships there with that program are very 
strong. And we have partnered with other community entities in 
Floyd County to make sure that this program strives and to make 
sure that we are addressing the needs of our at risk parents 
and students. I hope that answered your question.
    Mr. Burns. I have far exceeded my time. Thank you, Mr. 
Chairman.
    Chairman Boehner. I yield to Ms. Majette.
    Ms. Majette. Thank you, Mr. Chairman. And I do agree with 
Congressman Burns that it is important to have that kind of 
collaboration and in fact with the re-authorization of the Head 
Start Program that was passed in the House, that is one of the 
really good components of it, that it encourages and increases 
the opportunity for that kind of collaboration. And it helps us 
use resources in a more effective way. But the other part of it 
is again the issue of funding, and after 39 years of the Head 
Start program operating and with all the studies showing that 
it has been the most successful Federal program in terms of 
helping our children be ready to go to school and to be able to 
be successes, here in Georgia alone we have over 100,000 
children who are eligible for the Head Start Program who are 
not receiving those services, those comprehensive services that 
will allow them to be ready to go to school and not be left 
behind once they are there.
    And so again this is a very serious issue with respect to 
the funding and as Superintendent Cox pointed out we are still 
having a really serious budget crunch, budget crisis here in 
Georgia. And so, Dr. Hickok my question is addressed to you, 
because although we are looking at different programs, as John 
Lewis likes to say, even through we came over on different 
ships we are all in the same boat now. So the Federal funding 
that is available, if it is going to one program, it may not be 
available for another. So with respect to No Child Left Behind, 
do you really feel at this point that the funding is sufficient 
to meet the needs of Georgia to able to implement the program 
particularly with respect to training teachers; and the other 
part of that question is what about the funding for Head Start 
so we can continue to serve and expand the services that these 
over 100,000 children in Georgia alone need to be able to be 
ready to go to that next step?
    Dr. McDaniel. Certainly I--the debate over funding is a 
debate that started long before No Child Left Behind and I fear 
will go on long after I leave my term of service.
    Ms. Majette. Absolutely, and mine as well. We are on the 
same page on that, I acknowledge that.
    Dr. McDaniel. But I am convinced, I really am convinced, 
and it is born more of my experience as a state chief honestly 
and as a school board member, than my job now. That the 
American taxpayer, whether it be Federal taxpayer dollars or 
state and local taxpayer dollars, is extremely generous, as 
they need to be with regard to education. We just past a 
milestone in this country, over $500 billion on K-12, that is 
much more than we spend on national defense in a time of war. I 
will echo the comment of the Chairman; is it enough? Probably 
not. And I have never met a school board member, including 
myself when I was one, or a state chief, including myself when 
I was one, that said, please no more money. So, I think we have 
to be realistic about that. But I do think the money is there, 
I think there is adequate funding for No Child Left Behind.
    I think what we need to do, it goes with this attitude 
shift that we have been talking about. We need to stop talking 
about amounts of spending and start investing or keeping an 
investment mentality.
    When you talk about spending, the fact is you always talk 
about how much do you have to spend. When you adopt an 
investment mentality, there is a nuance there. It is not just 
how much you have to spend but what kind of yield do you get on 
the investment. And you begin to think about not just the money 
but the dividend. And I think that is what No Child Left Behind 
is all about. It really is about focusing on results as well as 
investments. So, I think--I do think, that we spend an adequate 
amount of money and we will continue to have increases, I am 
sure.
    And I think on Head Start, and I am no expert on Head 
Start, but I think as well while Head Start has a reputation 
well-deserved as being one of the great successes of the great 
society legislation years, the fact is that was a long time ago 
as well, and we need to emphasize more in Head Start on early 
child education as well as development. Because Head Start, 
while it is good, probably could be a whole lot better as well, 
just as we have been talking about with public schools.
    Ms. Majette. Well, I agree with you that it could be 
better, but the fact of the matter is it is not just about 
education, Head Start is not just about education, it provides 
the comprehensive services that are needed so that a child can 
learn. And what I am talking about is to be able to have the 
vision screening so that you can figure out that a child needs 
glasses when he is 3 years old so when he goes to school he can 
read the blackboard. To have the medical screening and the 
vaccinations that are required at all of those different 
levels. And, frankly, in terms of your analysis of investments, 
I agree with you, but let me share with you some information 
regarding studies that have shown how well the Head Start 
Program works. Since it is targeted for people who cannot 
afford some of the things that need be in place before they go 
to school. The Head Start Program utilizes funds in a very 
effective way. It only costs $18 a day to have a child 
participate in the Head Start program, to get the vision and 
the dental screening and the interaction with other children, 
the preparatory things that will help that child succeed, as 
well as helping their parents help the child. So that $18 a day 
that we spend on each child or we do not spend on each child in 
the Head Start Program really will return dividends or require 
us to spend more money on the back end.
    And in my county, I represent DeKalb County, which has 
98,000 students in the DeKalb County Schools System and the 
most diverse school system in the entire state of Georgia. So 
with the $18 a day you can cover those children that need to be 
covered under the Head Start Program. Now in my county, we also 
have the largest jail in the southeast, the DeKalb County Jail 
and I check with the sheriff periodically, and the last time I 
checked a couple of weeks ago it cost $52 a day to feed and 
clothe and house and keep an inmate in the DeKalb County Jail.
    I am a former state court judge and I stay in constant 
contact with my juvenile court judge friends. And it costs up 
to a $170 a day to keep a child in juvenile custody, in 
juvenile detention. So while we are failing to make the 
investment, that $18 a day for these 100,000 children who are 
eligible for the Head Start Program, we are going to pay for it 
and we do pay for it on the back end, by keeping them in 
juvenile centers having them retained and incarcerated and 
studies have shown--I am going to make the link here for you--
studies have shown that a child who participates in the Head 
Start Program is five times less likely to be incarcerated, to 
be jailed, than a child who does not participate in the Head 
Start Program.
    So, when you are looking at the dollars and where that 
investment ought to be made for our children and for our entire 
community, to me it seems pretty obvious. Now that I have 
explained the number to you, I hope that you will agree that 
making the investment on the front end, perhaps redirecting 
some resources that are available for other programs, perhaps 
even non-educational programs, making that investment in our 
children and our community on the front end will pay us huge 
dividends on the back end. Being able to have children in rural 
communities have the dental screening, have all of the tools 
that they will need so they will not be left behind when they 
get to school will enable that rural community to grow and 
prosper.
    And one of the ways that will happen is that companies, 
businesses, will look to locate in places where you have good 
school systems, in places where you will have a well educated, 
well trained work force. And so that is going to bring those 
resources to those communities that will help that community to 
grow and prosper.
    I guess now that I have explained all that to you, do you 
have a different perspective on the importance on making the 
investment on the front end as opposed to paying for it on the 
back end.
    Dr. Hickok. I think we agree completely on the importance 
on investing in the front end. That is in essence what Reading 
First, Early Reading First, the Head Start proposal that has 
been passed by the House, what No Child Left Behind is all 
about. The debate is about the size of the investment and the 
relative yield of the investment, but I think we definitely 
agree. I can give you chapter and verse of how making sure 
students can read at an early age can have transformative 
benefits not just in terms of dollars and cents, but in terms 
of students' lives. So I think we agree, the debate is over the 
amount and then how best to strategically invest that amount.
    Ms. Majette. Well, the challenge that we face here in 
Georgia is that we have over 100,000, at least over 100,000 
children in which we are not able to make that investment and 
so the question still remains, how are we going to take care of 
that immediate need, and do we recognize the importance of 
dealing with that need for the future of our communities and 
the future of our country.
    And I suppose that is just a rhetorical question that we 
will leave open unless you want to respond again. Thank you.
    Chairman Boehner. The Chair recognizes Mr. Burns for a 
quick follow up and then we will conclude.
    Mr. Burns. Yeah, just a quick follow up. I would like to 
just remind the audience and my good friend from Georgia that 
Head Start is a Health and Human Services program, it is not a 
Department of Education Program. And the Head Start Program 
unfortunately is not well coordinated across our nation with 
education. So that in Head Start, we go from the Federal level 
to the local level and we bypass the state and we bypass the 
educational environment. And I think there may be some overlap, 
certainly we have many opportunities within Head Start to do 
things other than education, but education should be a key 
component of that. And we are always talking about priorities, 
you know whether we are talking about Even Start or we are 
talking about Early Reading First, whether we are talking about 
No Child Left Behind. I think that all of those things have to 
be balanced, we have to find a reasonable balance for that.
    Last question perhaps, maybe for Superintendent Cox, we are 
as you say, we are in the middle of--it is a good Georgia term, 
we are fixing to. We are beginning the process of annual 
evaluation. CRCT--I was in Athens, Georgia last week at Fourth 
Street Elementary School to help encourage those children to 
excel. I was in Nevills, Georgia yesterday at Nevills 
Elementary School. Now I want maybe for you to give me some 
input on is as Georgia tests its students, what kind of 
pressure are we putting on our third graders, and what kind of 
pressure are we putting on teachers and our schools and is that 
something that we can work effectively with to ensure success?
    Ms. Cox. I have heard some rumbling from the folks that are 
experiencing the pressure. My pressure is not done yet because 
we have got to--our pressure now is once they give the tests 
and wrap them up and ship them off, we have promised results 
within 2 weeks of them doing that. So, the pressure will be on 
me in just a few weeks, but for now there is pressure, and I 
think it depends upon the attitude. Everywhere I go, when I 
have visited schools this year, this is a true statement, when 
I walk into a classroom whether it is because I am going to 
teach that day or because I am just going to pop in and say 
hey, I ask the kids I say, you know you have got this big test 
coming up and this was even in the fall. And it does not matter 
where I go, those kids holler out CRCT. They know it, and it 
does not matter whether it is first grade, eighth grade, 
whichever. So they know that so this is, the importance of how 
the students perform on this test has been clearly 
communicated.
    There is pressure on teachers, some teachers will tell you 
that from their perspective because I think they have probably 
entered teaching in an era where we did not stress standardized 
tests and we did not have that kind of--that it is an 
uncomfortable pressure, but they understand it, but you know, 
there is some fear. Because we did not give a full battery of 
tests last year, we were only--due to our debacle, we were only 
able to administer Reading, Language Arts and Math to fourth, 
sixth, and eighth grade. So, this year with the full battery of 
tests, with AYP determinations, you know, there is a lot of 
pressure.
    The third graders, again, and I think it all depends on who 
you talk to, I think there is some genuine concern on the part 
of parents that I have talked to where they know their child 
has struggled with reading in third grade. But they also know 
that there has been tremendous resources. All year, those 
teachers have known which kids came to them not quite as 
prepared and they knew that this was coming and they have 
focused on those learners. We were able this year to provide a 
practice online CRCT test, and I do not just mean the questions 
pop up, I mean fully automated where the kids can take the test 
online, the results come back immediately to the teacher. They 
can get instant feedback on the areas of strength and 
weaknesses for the students. We have had over one million 
testlets being used in our school system since February 1st, to 
get ready for CRCT. And if I were to dig down in the data, I 
would guarantee the majority of that grade level would be those 
third graders. So there has been tremendous focus.
    And I guess when it comes to pressure because this is going 
to be the first year of this policy, we just will not know, we 
are unsure because we did not test our third graders last year. 
We know that 20 percent of our fourth graders did not perform 
at grade level proficiency in reading. The year before that 
when we were able to give the third grade assessment in reading 
17 percent of our kids. And if you look at the last year we 
gave it to the second and first graders, those kids were even 
stronger in reading. So we are very hopeful and optimistic that 
the numbers are going to be quite less than that 20 percent we 
saw in fourth grade last year.
    But, I think what people are feeling and experiencing is 
the mixture of excitement because they have worked so hard and 
they are anxious, fear of the unknown because this is all new, 
and AYP determination that will be coming out for the second 
year in a row, and for our non-Title I schools this will be the 
year that any consequences can happen. So I think it creates 
the sense of urgency and depending upon--and it does depend, 
because everywhere I have gone they know that sense of urgency, 
they understand the pressure. But they are out there getting it 
on, because sometimes our best work is done when we are under 
pressure. And school systems have focused, they have 
prioritized and they understand what is at stake. And they 
understand it is not just for them, but that it is for those 
students. So I do not think from what I have seen that it is 
something that is going to be detrimental. And I think as we 
progress and we understand what is coming and we do not have 
this fear of the unknown because it is not the first time we 
have done it, the anxiety levels in all of this will be reduced 
more and more as we go along.
    Mr. Burns. I certainly wish you well, and thank you for 
your efforts and thank the state.
    Ms. Cox. Thank you.
    Mr. Burns. Mr. Chairman.
    Chairman Boehner. Let me thank our excellent witnesses for 
your testimony and your willingness to answer questions and 
help us assess how it is going here. And thank all of you who 
have come today to our hearing. At this point the hearing is 
concluded.
    [Whereupon, at 11:56 a.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
